<html>
<title> - FORT PECK FISH HATCHERY AUTHORIZATION ACT OF 2000</title>
<body><pre>[Senate Hearing 106-1037]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1037

                        FORT PECK FISH HATCHERY 
                       AUTHORIZATION ACT OF 2000

=======================================================================

                             FIELD HEARING

                               BEFORE THE

             SUBCOMMITTEE ON FISHERIES, WILDLIFE, AND WATER

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                    APRIL 29, 2000--GLASGOW, MONTANA

                               __________

                                   ON

                                S. 2027

A BILL TO AUTHORIZE THE SECRETARY OF THE ARMY TO DESIGN AND CONSTRUCT A 
          WARM WATER FISH HATCHERY AT FORT PECK LAKE, MONTANA

  Printed for the use of the Committee on Environment and Public Works


                        U.S. GOVERNMENT PRINTING OFFICE
68-418 ps                       WASHINGTON : 2001
_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
 Mail: Stop SSOP, Congressional Sales Office, Washington, DC 20402-0001





               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED SIXTH CONGRESS
                             second session
                   BOB SMITH, New Hampshire, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
JAMES M. INHOFE, Oklahoma            DANIEL PATRICK MOYNIHAN, New York
CRAIG THOMAS, Wyoming                FRANK R. LAUTENBERG, New Jersey
CHRISTOPHER S. BOND, Missouri        HARRY REID, Nevada
GEORGE V. VOINOVICH, Ohio            BOB GRAHAM, Florida
MICHAEL D. CRAPO, Idaho              JOSEPH I. LIEBERMAN, Connecticut
ROBERT F. BENNETT, Utah              BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas          RON WYDEN, Oregon
LINCOLN CHAFEE, Rhode Island
                      Dave Conover, Staff Director
                  Tom Sliter, Minority Staff Director
                                 ------                                

             Subcommittee on Fisheries, Wildlife, and Water

                   MICHAEL D. CRAPO, Idaho, Chairman
CRAIG THOMAS, Wyoming                HARRY REID, Nevada
CHRISTOPHER S. BOND, Missouri        FRANK R. LAUTENBERG, New Jersey
JOHN W. WARNER, Virginia             RON WYDEN, Oregon
ROBERT F. BENNETT, Utah              BOB GRAHAM, Florida
KAY BAILEY HUTCHISON, Texas          BARBARA BOXER, California

                                  (ii)




  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                    APRIL 29, 2000--GLASGOW, MONTANA
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........     4
Burns, Hon. Conrad, U.S. Senator from the State of Montana.......     2
Crapo, Hon. Michael D., U.S. Senator from the State of Idaho.....     1

                               WITNESSES

Clinch, Bud, Director, Montana Department of Natural Resources 
  and Conservation, Helena, MT...................................    14
    Prepared statement...........................................    55
Graham, Patrick J., Director, Montana Fish, Wildlife and Parks, 
  Helena, Montana................................................    13
    Prepared statement...........................................    42
Kitzenberg, Hon. Sam, State Representative, Glasgow, MT..........     7
    Prepared statement...........................................    28
Lawson, Chuck, Chairman, Citizens for a Fort Peck Fish Hatchery, 
  Glasgow, MT....................................................    22
    Prepared statement...........................................    55
McColly, Robert, Valley County Electric Cooperative, Hinsdale, MT    23
    Prepared statement...........................................    61
Pratt, Hon. Eleanor, Chairman, Board of Commissioners, Valley 
  County, Glasgow, MT............................................     9
    Prepared statement...........................................    31
Seilstad, Carl, State President, Montana Walleyes Unlimited, Roy, 
  MT.............................................................    24
    Prepared statement...........................................    62
Tillotson, Colonel Mark, U.S. Army Corps of Engineers, Omaha, NE; 
  accompanied by Debra Brey, Planning Assistance to States 
  Program Manager for the Omaha District.........................    11
    Prepared statement...........................................    32

                          ADDITIONAL MATERIAL

Articles:
    Anglers Dollars Boost State Economy..........................    57
    Eastern Montana Agrees: It's a No-Brainer....................    30
    Need for a Warm-Water Fish Hatchery..........................    30
Letters:
    Baucus, Hon. Max.............................................59, 60
    Burns, Hon. Conrad...........................................    58
    Martz, Hon. Judy.............................................    60
    Racicot, Hon. Marc...........................................    59
    Wemhoener, Paul R., P.E......................................    60
Proclamation, Glasgow, MT........................................    30
Proposal, Fort Peck Fish Hatchery, Corps of Engineers............    33
Text of S. 2097, Fort Peck Fish Hatchery Authorization Act of 
  2000...........................................................    63

 
           FORT PECK FISH HATCHERY AUTHORIZATION ACT OF 2000

                              ----------                              


                        SATURDAY, APRIL 29, 2000


                                       U.S. Senate,
                 Committee on Environment and Public Works,
            Subcommittee on Fisheries, Wildlife, and Water,
                                                  Glasgow, Montana.
    The subcommittee met, pursuant to notice, at 10 a.m. at the 
Cottonwood Inn, Glasgow, Montana, Hon. Mike Crapo (chairman of 
the subcommittee) presiding.
    Present: Senators Crapo and Burns.

          OPENING STATEMENT OF HON. MICHAEL D. CRAPO, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Crapo. Good morning. This is a field hearing of the 
Subcommittee on Fisheries, Wildlife and Drinking Water of the 
U.S. Senate Committee on Environment and Public Works. We will 
be looking today at Senate Bill 2027, which is called the Fort 
Peck Fish Hatchery Authorization Act of 2000.
    Joining me today is your Senator Conrad Burns who, as I am 
sure you all know, has been a tireless advocate of this 
legislation in Washington, DC and has convinced the Chairman of 
our full committee, Environment and Public Works Committee, who 
is Bob Smith from New Hampshire, that the bill justified a 
field hearing.
    If you knew how hard it is to get a field hearing out of 
Washington--each committee has only a certain number of slots 
for field hearings, and the chairman of the committee guards 
those jealously and usually doles them out only when the 
details of highest priorities are reached, and Senator Burns 
has convinced the chairman that that is appropriate in this 
case.
    Since it fell in the subcommittee of which I serve as the 
chairman for jurisdiction, I got the privilege of being the one 
who comes out here to hold that subcommittee hearing--and I 
truly mean that.
    As you can probably guess, coming from Idaho, I see country 
like this and my mouth is watering. In fact, I want to come 
back and go fishing. I hope that you'll see me back in your 
community soon.
    In any event, we have three panels before us today. I'm 
going to conclude my remarks in just a moment and then turn the 
microphone over to Senator Burns for his remarks. Following 
that, I will lay out some of the rules of how the committee 
hearing will proceed and we will get right down to business. 
Barring any unforeseen circumstances, we should be able to 
proceed very rapidly.
    Senator Crapo. Senator Burns, would you like to make an 
opening statement?

                STATEMENT OF HON. CONRAD BURNS, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Burns. Thank you very much, Senator, Mr. Chairman. 
And thank you for coming to Montana. You've got to be half a 
salesman to get into that committee up there and to get a field 
hearing out here, and it would not have happened had we not 
told them that there's great, broad support for 2027 in this 
part of the world.
    We flew in through Billings last night after a pretty good 
rain. When we got up this morning, I said, ``All this will be 
blown out in the morning and we'll have a wonderful little 
plane ride from Billings up to Glasgow.'' Of course, we 
couldn't see anything. He said, ``I wish it was a prettier 
day,'' and I said, ``Don't say one bad word about those 
clouds.''
    [Laughter.]
    Senator Burns. We haven't seen very many of them, and so we 
need rain.
    We want to thank Senator Crapo for coming up and, as he 
said, we have a lot of the same challenges in our States of 
Idaho and Montana.
    You know, this could be one of the really good 
environmental things that we do as a community here in Valley 
County. Not only are we providing economic growth, but we also 
think this is very important for Fort Peck Lake and this whole 
area.
    It all fits into the infrastructure of eastern Montana. A 
little project that I've been trying to get done and finally 
got done is improving the road between Ekalaka and Alzada. Now, 
that doesn't sound like much, but it is the only paved road 
that we can tap into to get us to the north part of the State. 
It is those infrastructure things that we do that make the 
entrepreneurs, the people who have imagination and the tools 
who can really build this into an area where we are very proud.
    Another thing, now that we are into the new millennium, 
we're going to see a lot of visitors as a result of Lewis & 
Clark. And this project has become very, very important for a 
couple of reasons. It puts the right foot forward, as far as 
Valley County goes and on the trail of Lewis & Clark with the 
history and the culture that is here. So I believe it has many, 
many great, positive things about it.
    And then, when you get Sam Kitzenberg really fighting on 
you, I mean, every day--I don't know who pays his phone bill. 
Are you folks checking that out?
    [Laughter.]
    Senator Burns. But, nonetheless, we cannot do these 
projects unless we have strong, local support, and this turnout 
is pretty heartwarming--I realize it rained last night and you 
can't do anything, and right now there's a lot of people who 
kind of like mud that would have preferred not come in for 
these hearings, but to have a turnout like this this morning on 
this project is heartwarming.
    This project is not without its detractors, and sometimes 
its critics, but I think we can work our way through that. We 
know what the problems are. We have identified them and all of 
the parties are at the table.
    As we work our way through this thing, we think we'll have 
a very, very solid piece of legislation, and a piece of 
legislation that we think can pass this year.
    It is important that we get it passed this year, but we are 
limited in time because leadership in Washington is telling us 
the No. 1 priority is appropriations. Let's get our 
appropriations. And we are working on a much shorter calendar 
than we do with any other year, because everybody wants to get 
out of there and come home and campaign. So we want to move all 
the work that we have to do as fast as possible, and then move 
into legislation. But this piece of legislation has got great 
merit.
    There is the possibility that this project could be added 
as a part of other legislation, so we've looked at all the 
different prospects.
    The challenges, operation and maintenance, the problems of 
the operation of the hatchery--we'll work with the State. We're 
happy to have Pat Graham here, who works with Fish, Wildlife 
and Parks. All of these challenges are ahead of us, but 
everybody is at the table, and we think we can work through it. 
So thank you for coming today. Thank you for showing your 
support for this great project. We think it is very, very 
important.
    Mr. Chairman, we want to again welcome you to the State of 
Montana.
    Senator Crapo. Thank you, Senator Burns.
    [The prepared statement of Senator Burns follows:]
Prepared Statement of Hon. Conrad Burns, U.S. Senator from the State of 
                                Montana
    First of all, I want to thank you, Mr. Chairman, for coming out to 
Glasgow. I know it is well out of your way, but I know this town and 
the surrounding communities join me in thanking you for your efforts to 
join us.
    As you can see, the Fort Peck Fish Hatchery is an extremely 
important project to this community. It offers a way to spur economic 
development and recreational opportunities in the area. I believe it is 
also a way to help the environment. The hatchery will give us the 
option of rearing both sport fish and fish considered threatened and 
endangered.
    The hatchery project has been citizen led, and supported by the 
state legislature. Warmwater fishermen are now purchasing fish stamps 
to help cover the eventual costs of operation and maintenance. The 
Corps of Engineers has worked tirelessly on the project, and I am 
dedicated to shepherding authorizing language through Congress so we 
can break ground on the project as soon as possible.
    I introduced S. 2027, the Fort Peck Fish Hatchery Authorization Act 
of 2000, earlier this year to spur your Subcommittee's involvement in 
the process. Notice I called it the Act of 2000. I did so because I 
hope we can move this project forward as soon as possible. The 
groundwork is in place. The Corps has completed a Preliminary Design 
Study and Environmental Assessment, and this town is ready to go.
    While I would like nothing better than to see S. 2027 move as a 
stand alone bill, I have talked both to you, Mr. Chairman, and Senator 
Bob Smith, Chairman of the full committee about including this project 
in the Water Resources and Development Act of this year to move the 
project forward as quickly as possible. Chairman Smith has looked 
favorably on the project and I hope that this hearing will help us find 
the answers we need to finalize the details of the hatchery.
    At this point in time there are a few outstanding issues that we 
will need to address. First, and perhaps the easiest from an 
authorization standpoint, but more difficult from my position as a 
member of the Appropriations Committee, is the cost of the project. 
From the latest set of figures presented by the Corps, it is my 
understanding that the total cost for the hatchery project will be 
approximately $18.7 million. This will allow the completion of a state-
of-the-art facility that will meet the needs of the region to raise 
numerous fish species, including those listed in accordance with the 
Endangered Species Act.
    While I admit this is an expensive undertaking, the Corps of 
Engineers has compared these figures with the cost to construct other 
federally financed hatcheries and determined that the build cost is 
comparable to previous projects.
    The second issue of contention that has been brought to my 
attention relates to the delivery of power to the hatchery. It is my 
understanding that the Corps and the State of Montana have discussed 
the ability to deliver low cost project power to the hatchery in an 
attempt to keep Operation and Maintenance costs at a minimum. However, 
the local electric cooperative has raised concerns that this power 
should be delivered through the co-op. I have asked the cooperative to 
estimate what they would charge for electricity to power the hatchery 
so we can compare whether this cost increase threatens the viability of 
the project.
    Finally, there has been a discussion of Operation and Maintenance 
costs and who should shoulder this burden. As I pointed out previously, 
the State has begun marketing a fish stamp to cover some of these 
costs, but is it highly unlikely the sale of this stamp will generate 
enough revenue to cover all the O&M costs. To make matters more 
contentious, State law dictates that the State share of Operation and 
Maintenance can not exceed the revenue produced by the sale of the 
warmwater fish stamp. However, considering that this hatchery will be 
used to raise pallid sturgeon, it is my hope that we can identify a 
portion of the hatchery's Operation and Maintenance that will remain a 
Federal responsibility to support raising threatened and endangered 
species.
    I look forward to discussing these issues with our witnesses.
    Senator Crapo. I was just handed a statement from Senator 
Max Baucus, which we will enter into the record. He was not 
able to be here today, but his statement will be entered into 
the record.
    I noted, as I was reading the statement, that he indicates 
that he, too, will support us, and on Thursday he agrees to 
cosponsor your bill, Senator Burns. I guess you probably know 
he's doing that.
    Senator Burns. We welcome him aboard.
    Now we have the legislation, and his statement will be 
entered into the record.
    [The prepared statement of Senator Baucus follows:]
 Prepared Statement of Hon. Max Baucus, U.S. Senator from the State of 
                                Montana
    I would like to thank Senator Crapo for holding this hearing in 
Glasgow today so that the people of Montana can voice their support for 
a fish hatchery at Fort Peck Lake.
    Today you will meet some of my real heroes, Sam Kitzenberg, who in 
the truest sense represents this area and Chuck Lawson, who has 
dedicated his life to making this fish hatchery happen. These are the 
kind of constituents its fun to help because their heart is in this 
project.
    They've convinced me that a fish hatchery at Fort Peck Lake is the 
very best kind of economic development for this area. Senator Burns and 
I are among their strongest supporters--along with the state's Walleyes 
Unlimited chapters--and I know you will join us in this effort after 
you've heard how important this project is to all of Montana, but 
especially the folks in Northeastern and Central Montana. This fish 
hatchery will serve as an example of the kinds of successes that happen 
when we all work together, Federal, state and local government and 
private citizens.
    The Missouri River and Fort Peck Lake provide a great source for a 
cool- and warm-water fish hatchery.
    With the growing pressure at Fort Peck and throughout the state for 
quality fishing, this hatchery is vital to the economy of the state, 
the sustainability of our fish populations and the future of Montana's 
outstanding fishing experience.
    Although Fort Peck was authorized as a multi-purpose project to 
include other activities to promote economic growth, including 
recreation, those projects never emerged. Building this fish hatchery 
will help fulfill the initial vision for this project.
    This fish hatchery will also provide a state-of-the-art facility 
for the production of the endangered pallid sturgeon as well as other 
state and Federal species of concern.
    I want to thank everyone who has come to Glasgow to testify and to 
support this effort today and all of those who have worked so hard to 
make this vision a reality. As the ranking member of the Senate 
Committee on Environment and Public Works, the Committee with 
jurisdiction over the programs and projects of the U.S. Army Corps of 
Engineers, I intend to include this bill in the Water Resources 
Development Act of 2000 that will be considered by our Committee this 
spring.
    Thursday, I signed on as a cosponsor to S. 2027, the Fort Peck Fish 
Hatchery Authorization bill. I know that you will hear today that 10 
million isn't enough to build the hatchery we need and we will be 
making revisions after today's hearing. We are waiting for final 
estimates from the Army Corps of Engineers to insert the language in 
WRDA.
    Senator Crapo. I just wanted to say, Senator Burns, you 
reminded me that I should make a comment about what the 
processes are with this legislation and where we are headed.
    I think the fact that you have seen the chairman of the 
full committee and the subcommittee pay enough attention to 
hold a field hearing on this legislation means that it is 
getting the highest priority focus in Washington, DC.
    Senator Burns has indicated that the budget cycle that we 
are in--we have a budget that Congress just passed that will, 
for the fourth year in a row now, keep the Federal budget 
balanced. It will do so for the third year in a row without 
taking any Social Security trust fund dollars to do it. And it 
will actually, if passed, if the appropriations are added 
matching the budget that was passed, the budget will also make 
room for some significant tax relief, as well as the kinds of 
investigations that we need to make in our national defense and 
some of the other important priorities, such as these kinds of 
water projects.
    So we've got a budget that has been put forward that will 
allow for this kind of thing, but we are in a very difficult 
budget cycle, which we have been for a number of years now as 
we face the difficult fiscal burdens that we see in Washington.
    To get a project in of this size, too, takes a monumental 
amount of effort, and so I think that it is significant that 
this field hearing is being held.
    Senator Burns mentioned the importance of public support. 
One of the things that I am here to gauge and have already 
gauged is whether there is public support for this project. The 
fact that, in a small community like this, a room like this can 
be filled is not something that is done without notice, and 
will be reported back to the committee and the full committee 
chairman, in particular. I think those kinds of things are very 
critical.
    There is legislation moving in Washington right now called 
the ``Water Resources Development Act,'' and that act is one 
which, if we need to--in fact, it is probably one of the most 
likely vehicles that we could try to attach this legislation to 
on the part of moving it through.
    I think that, short of some of the kinds of political 
problems that arise in a Presidential election year that would 
cause unnecessary budget problems, we should be able to get the 
WRDA Act, the Water Resources Development Act, through Congress 
this year, and that I'll give you my commitment, even before we 
begin the hearings here today, that I will work to see if we 
can get this legislation attached to the WRDA Act.
    I have just been also told there are a number of people 
standing. There are a few seats up here in the front, and we 
encourage those of you, if you would like to find a seat, to 
just feel free to work your way right up to the front and get a 
seat.
    It always reminds me of when my folks had their 50th 
wedding anniversary, and people kept coming, and Mom said, 
``Russell, we don't have enough chairs.'' And Dad said, ``We've 
got enough chairs; we've got too damn much company.''
    [Laughter.]
    Senator Crapo. If you people in the back of the room can't 
hear, there are some people up front that would like to trade 
with you.
    [Laughter.]
    Senator Crapo. Coming from Idaho, I know what holding 
meetings in small communities is like. When I walked in here 
this morning, first of all I asked what the population of the 
area was, and then I walked in here and saw all these chairs 
and I thought, ``They're never going to fill all those 
chairs,'' and here we've got standing room only. As I said, I 
will report that back, because that really says something about 
the support in the community.
    Now we will proceed. Let me lay out the rules.
    We have a full set of witnesses. We have three full panels 
for testimony today, so we are going to ask that all of the 
witnesses pay very close attention to the timing requirements, 
because we want to have an opportunity, as Senators, to engage 
with you in dialog.
    I will tell you that both Senator Burns and I have read 
your testimonies. One of the things that we commonly see, when 
we have--and I think you all know this--we ask you to keep your 
testimony to 5 minutes. The lights up here will show that. I 
believe the yellow light goes on when 1 minute is left, and the 
red light means finish your comment and conclude your 
testimony. And if you are like most witnesses that we have in 
Washington, DC, the time will run out before you run out of 
things to say. Be assured that you will have an opportunity 
during the question period and the dialog period to supplement 
whatever you didn't have time to say during your testimony, and 
that we have read your full testimony, which will be made a 
part of the permanent record. So I would ask you to try to pay 
close attention to those red lights.
    Second, there are many people here who were not able to be 
accommodated on the panel who would like to say something. 
Unfortunately, today we don't have time for you to verbally 
address this committee, but we have put signs up around the 
room. There are signs up, I think, with our address so you can 
submit written testimony. If you haven't been able to see such 
a sign or find that address, I'm sure that Senator Burns' staff 
here and--do they know how to contact your offices around here?
    Senator Burns. If there's any trouble.
    [Laughter.]
    Senator Crapo. Get hold of Senator Burns' office. They will 
make sure that you know the address to which to send any 
testimony or any comments that you would like to send us in 
writing. We would welcome that. And those comments will be made 
a part of the official record of the hearing. So please be 
aware that those comments will not only be received and made a 
part of the hearing, but will be reviewed and be a part of the 
decisionmaking process.
    Now, have I forgotten any instructions?
    Senator Burns. I don't think so.
    Senator Crapo. OK. Let's go on with the first panel, then.
    Our first panel consists of The Honorable Sam Kitzenberg, a 
State representative and I understand running for State Senate, 
and The Honorable Eleanor Pratt, chairman of the Board of 
County Commissioners of Valley County.
    We welcome you both to the hearing, and we will proceed in 
that order.
    Representative Kitzenberg, you've already got a yellow 
light, so I think you'd better----
    [Laughter.]
    Senator Crapo. Go ahead, Representative Kitzenberg.

    STATEMENT OF HON. SAM KITZENBERG, STATE REPRESENTATIVE, 
                        GLASGOW, MONTANA

    Mr. Kitzenberg. Senator Crapo, Senator Burns, other 
distinguished guests today, for the record, my name is 
Representative Sam Kitzenberg from House District 96, and 
during the last session of the Montana Legislature I introduced 
House Bill 20, the Fish Hatchery Bill, on the first day of 
session, and it passed the last day of the session.
    I'd like to begin by saying that Fort Peck is the largest 
body of water in Montana, and both of you have had an 
opportunity to fly over that this morning. The interesting 
thing about it is that it is one of the least-developed areas. 
It is 134 miles long and has an area of approximately 239,000 
acres, which is more than the Pacific Coast of California. The 
potential for fisheries here is almost unlimited.
    One of the interesting things about this area is that, 
while the winds of economic prosperity have crossed our Nation, 
the winds of economic prosperity have not crossed Montana. We 
are hurting. Several blocks, a half mile from here, the 
Penney's store just closed. The Dollar Store is on the verge of 
closing. I could take both of you around and show you many, 
many farms that are on the verge of bankruptcy. It may be 
raining today in Glasgow, but I think maybe that's symbolic 
that it is a rainy day and the clouds are dark in this area. We 
need some economic hope.
    One of the projects that we've worked on to develop this 
was the fish hatchery bill. And I might add we have public 
support. I was very appreciative to know that Senator Crapo 
served 8 years in the Idaho Legislature, so he can appreciate 
this--that it takes a lot of hard work to get a bill through 
the legislature. I'm not so sure if it is harder in Congress or 
harder in the legislature.
    We have a sign up at Glasgow High School, and it says, 
``Miracles come after a lot of hard work.'' I can testify that 
it took a lot of hard work by many individuals and many 
organizations to accomplish this.
    As far as public support, last Thursday you wouldn't 
believe what this bill has in it. Last Thursday I had the 
privilege of joining Roy Snyder and Myron Gartner and Chuck 
Lawson and we went up to the Walleyes Unlimited Club at 
Marlton. If you were to tell me that my life depended on going 
over to Marlton and raising $10,000 for a project, I would say, 
``You're crazy. They're hurting worse up there than they are 
here.'' That club raised $10,000 for this project. The room was 
completely full. There were 250 people there, which was just 
remarkable.
    That hasn't been the only banquet that we've been to this 
year. We've seen this in other places.
    I still remember the day that Chuck Lawson told me at 
Sagebrush Cellular that he had a great idea for a bill, and I 
asked him if he was serious about it. I remember flying to 
Billings with him and Roy Snyder to talk to the Walleyes Club 
about their support. Before take-off he said, ``If you are shy 
about flying, you can sit in the front seat so you don't throw 
up on us.''
    [Laughter.]
    Mr. Kitzenberg. ``Chuck, I'm not fearful of flying, I just 
don't want to hit a deer on the runway on take-off.''
    ``Sit down and shut up or I'm going to put a bag over your 
head,'' Chuck said, and off we flew, to many walleye meetings 
in eastern Montana. Most of the time we drove, getting home 
late or early in the morning.
    And Myron Gartner was along, too, tirelessly contracting 
and erecting over 85 signs throughout eastern Montana.
    Fort Peck manager Roy Snyder, one of my personal heros, was 
our facilitator. He came along, offering sound advice and free 
land for rearing ponds.
    Then the legislative battle began. There were 50,000 copies 
of literature, phone calls, and letters. And I'm here to 
testify this was one of the top five issues, that legislators 
received more mail and calls about during the last session than 
any other piece of legislation. In fact, several legislators 
said, ``You can be done with the phone calls and I'll vote for 
the bill.''
    [Laughter.]
    Mr. Kitzenberg. I remember thinking during that first 
committee hearing of the House Fish and Wildlife and Parks 
Committee in the House that we were two votes shy. We counted 
heads. I was worried. And the bill could have died right there, 
but then a miracle happened and it passed out of committee.
    One of the things I just want to share with you, one of the 
highlights of my life, besides carrying this bill, was one 
summer I had the opportunity to meet former Senator Burton 
Willard, and he had a cabin at the Glacier Park and I was there 
at a sales meeting and was told that he had this cabin, and I 
walked over to see him, and I got a chance to visit with him. 
There was a gleam in his eye, and one of the things he was so 
proud of, he told me, ``It took me 15 minutes to convince FDR 
to build Fort Peck Dam.''
    I have composed a poem today in salute of that, in honor of 
him. Mr. Robert Penske could not be here, so I offer my humble 
poem in testimony.

    The Fort Peck fish hatchery--is it a dream or is it 
reality?
    Only Congress can tell us now.
    The Fort Peck fish hatchery passed the 56th Legislature 
session,
    Introduced the first day and passed the last day.
    Fort Peck fish hatchery needs you now.

    Fort Peck fish hatchery--Lewis and Clark passed by it.
    Working together, anything can be accomplished.
    Fort Peck fish hatchery--April 29, 2000,
    Cottonwood Internet, Glasgow, Montana, Senate Subcommittee 
hearing.
    Welcome to Montana.

    Senator Crapo. Thank you very much, Mr. Kitzenberg.
    Senator Crapo. Ms. Pratt?

      STATEMENT OF HON. ELEANOR PRATT, CHAIRMAN, BOARD OF 
         COMMISSIONERS, VALLEY COUNTY, GLASGOW, MONTANA

    Ms. Pratt. For the record, my name is Eleanor Pratt. I'm 
Chairman of the Valley County Board of Commissioners. I extend 
a cordial welcome to you, Senator Crapo, and thank you to you, 
Senator Burns, for sponsoring this Senate hearing in Valley 
County.
    Mr. Chairman, I feel the most important message that I can 
convey to you is that our entire community is in favor of the 
Fort Peck fish hatchery. Since it was first proposed in 1997, 
people throughout the community and many from across the State, 
from all walks of life, have jumped on the bandwagon to promote 
this new fish hatchery. They have contributed their own money, 
written letters of support, and traveled to meetings, all of 
which adds up to countless hours of time, and all at their own 
expense.
    The economic base for this area is farming, ranching, and 
tourism. The fish produced should be compared to a commodity 
like that of grain and cattle; therefore, having a fish 
hatchery at the Fort Peck Reservoir makes good economic sense 
because it would be an environmentally sound resource for this 
county, as well as for the State of Montana.
    This part of Montana is known as ``Missouri River 
Country,'' and the tour guide brochures promote fishing.
    The Fort Peck Reservoir is called ``The Riviera of 
Northeast Montana.'' I can remember the first hearing or 
meeting I went to and said that. I thought that Senator Baucus 
would fall off his chair laughing. But I think of it that way--
a diamond in the rough, the potential of which, some 66 years 
after its construction, has still not been realized.
    Those who appropriated the funds to build the reservoir had 
no vision of how time would change the lifestyles of Americans. 
Travel in the 1930's was limited to the very wealthy. Today, 
travel is for the majority, for everyone, young and old. 
Fishing is big business, and fisherman dollars are good for the 
economics of Valley County and all of the other counties 
bordering the reservoir.
    The need for economic help is better described as survival 
for this part of the country, for Valley County and other 
counties that have access to the reservoir.
    I'd like to say, just so that you can understand that, that 
Valley County has a per capita income of just $1 under $19,000. 
Fergus County comes in at $17,900, McCone at $15,700. Phillips 
at $15,000, and Garfield at only $13,777--very low income.
    There is fact I didn't file in my statement, but I'd like 
to add it now.
    At the time the reservoir was built, privately owned land 
in Valley County taken for the Fort Peck project approximated 
39,400. Other Federal lands in Valley County transferred to the 
Corps of Engineers for the Fort Peck project, approximately 
110,000 acres.
    We have been waiting for this to develop.
    To further emphasize the severe economic concerns of 
Montanans, our Governor, Mark Racicot, has called a special 
session for this week, starting on May 8th, to specifically 
address economic development.
    Good, productive land was taken for the reservoir, and the 
taxes that had been paid to the county were lost forever.
    In summary, Mr. Chairman, we need your help, and that of 
your committee, to make the Fort Peck fish hatchery a reality. 
The support for the project is overwhelming. I travel 
throughout this State and I have never heard one opposition to 
this project. It is a cooperative effort--local, State, and 
Federal. The fish hatchery is important for the counties with 
access to the reservoir and for the entire State of Montana.
    Thank you for allowing me this time. I ask for your support 
of the Fort Peck Fish Hatchery Authorization Act of 2000.
    Senator Crapo. Thank you very much, Ms. Pratt.
    Senator Crapo. Senator Burns, would you like to ask the 
first round of questions?
    Senator Burns. I don't think I have a question. I think 
they really were self-explanatory in their statements. I think 
we are aware of the challenges ahead, and I just want to 
express our appreciation to the county, Valley County, and to 
you, Sam, for your tireless work. I know this has been a labor 
of love for you.
    As soon as this is all over and we are successful in 
building this, Sam, I'm going to come and take an English class 
from you.
    [Laughter.]
    Senator Burns. But I have no questions for this panel. 
However, we do have some panels I will have some questions for.
    Senator Crapo. Thank you, Senator.
    I have one question. Before I ask the question, I just 
wanted to say to Ms. Pratt that your testimony about the 
importance to the economic development of the community is very 
noteworthy, and I appreciate that. Again, the public support 
here is just overwhelming. I think that is a very significant 
factor in the committee's hearing.
    The question I have is for Representative Kitzenberg. I 
know that it is tough to pass a bill in either the U.S. 
Congress or in the State Legislature. I wonder if you could 
briefly go over for me what kind of opposition you did face 
when you brought this issue before the State Legislature.
    Mr. Kitzenberg. One of the things that we faced was I think 
an effort was made to divide the fishing community in the State 
of Montana and to warm-water fishermen and cold-water 
fishermen. One of the factors is that our State has had a 
tendency to favor trout fishing over cold-water fishing. So I 
think that automatically the cold-water fishermen got 
defensive.
    One of the things that, in fact, I mentioned in my 
testimony was that it got to be kind of funny, because a fellow 
from the Mile High Fishing Club in Butte got up at one of our 
hearings and said, ``You Canadians out there in eastern 
Montana,'' and that got a lot of laughter, I can assure you.
    I think that, unfortunately, there are forces in our 
society that try to divide us, you know, divide and conquer. I 
think, once we put all our cards on the table and explained our 
proposal, that a lot of this--that there was no threat to the 
trout fishermen, that, in fact, this fish hatchery could 
actually, in some respects, facilitate some of their efforts, 
too, and take out some of the pressure that they would be 
feeling. I think, once we laid all our cards out on the table, 
reason sort of prevailed.
    I think, like any piece of legislation--and Senator Burns 
and I were talking about this, too--there are times you have to 
have hearings and you have to give people a chance to vent 
their prejudices and their arguments, and so a lot of this 
dissipated over the course of events.
    But there was some opposition there. I think a lot of that 
was just clarifying what we were trying to do. And people get 
scared when you start talking about a fish hatchery. It's kind 
of like launching an aircraft carrier. They want to know if 
there is a need. You have to justify the need, and go into all 
of that. It takes forever with an aircraft carrier and also 
with a fish hatchery just to build it.
    But, anyway, in the final analysis, the bill passed, 
through all of our opposition.
    Senator Crapo. Thank you. At this point, the differences 
between the cold-water fish interests and the warm water or 
intermediate water temperature--whatever those categories--warm 
water, cool water, and cold water fish interests, are they 
pretty much resolved now?
    Mr. Kitzenberg. I think so.
    One of the factors I used is I had a trout tie that I wore 
in the hearings. I didn't wear it today. I think that helped.
    [Laughter.]
    Senator Crapo. I come from southeastern Idaho, about 90 
miles south of western Montana, so I've done a lot of cold-
water fishing. But I have to admit that I haven't caught a 
walleye yet in my life, so I think there's good reason I should 
get back here to this community.
    [Laughter.]
    Senator Crapo. Did you have anything else to say?
    Senator Burns. Not any more.
    Senator Crapo. All right. We'd like to excuse you and thank 
you both for your testimony.
    We'll call up our second panel, which consists of: Colonel 
Mark Tillotson of the U.S. Army Corps of Engineers, who is here 
from Omaha, Nebraska; Mr. Pat Graham, the director of Montana 
Fish, Wildlife and Parks; and Mr. Bud Clinch, the director of 
the Montana Department of Natural Resources and Conservation.
    Gentlemen, we will take you in that order. You heard the 
instructions on the lights, so please try to follow the lights, 
and we will begin with you, Colonel Tillotson.

    STATEMENT OF COLONEL MARK TILLOTSON, U.S. ARMY CORPS OF 
ENGINEERS, OMAHA, NEBRASKA; ACCOMPANIED BY DEBRA BREY, PLANNING 
 ASSISTANCE TO STATES PROGRAM MANAGER FOR THE OMAHA DISTRICT, 
                       AND TED STRECKFUSS

    Colonel Tillotson. Mr. Chairman and members of the 
subcommittee, I am Colonel Mark Tillotson, district engineer, 
Omaha District, U.S. Army Corps of Engineers. With me today are 
Debra Brey, the Planning Assistance to States program manager 
for the Omaha District, and another member of the district who 
was instrumental in completing this study, Ted Streckfuss.
    Thank you for the opportunity to present a statement on the 
findings of our study of a proposed fish hatchery at Fort Peck, 
which we conducted for the State of Montana under our Planning 
Assistance to States program, authorized by section 22 of the 
Water Resources Development Act of 1974, as amended. I 
understand that the Administration is developing a position on 
S. 2027, the Fort Peck Fish Hatchery Authorization Act for 
2000, which would authorize Federal construction and cost-
sharing of the hatchery.
    From December, 1999, through March, 2000, at the request of 
the State of Montana Department of Fish, Wildlife, and Parks 
and local interests, the U.S. Army Corps of Engineers conducted 
a reconnaissance-level study of and prepared a conceptual 
design plan for a proposed multi-species fish hatchery at Fort 
Peck, Montana, under the section 22 authority.
    For the study, the hatchery was sited on a 94-acre parcel 
of land downstream from Fort Peck Dam. In general, the study 
discussed: one, the need for and impacts of having a second 
warm-water fish hatchery in Montana; two, the types and 
production numbers of fish proposed for propagation at the 
facility; three, opportunities for raising endangered species, 
such as the pallid sturgeon; four, a preliminary design and 
cost estimate for construction and operation and maintenance of 
a fish hatchery; five, the availability of Corps land for the 
project; and, six, the availability of high-quality water and 
affordable power to operate the facility.
    Through a collaborative effort, the Corps of Engineers and 
the Department of Fish, Wildlife and Parks determined that a 
facility consisting of 54 rearing ponds, having a total of 49 
surface acres of water, and a hatchery building approximately 
22,000 square feet in size would be accommodated on the 
proposed site. This facility would provide a reliable and cost-
effective means of producing the desired fish species to meet 
the needs of the State of Montana, including walleye, sauger, 
tiger muskie, northern pike, chinook salmon, large-mouth bass, 
small-mouth bass, and catfish. The hatchery would also support 
the propagation of the endangered pallid sturgeon.
    The study was completed on schedule. A summary report of 
the basic study findings was provided to the study sponsor in 
mid-March 2000, and the main report was provided at the end of 
March, 2000. Total study costs were $250,000, with the State 
and the Corps each providing $125,000.
    Mr. Chairman, this concludes my statement. We would be 
happy to answer any questions you may have.
    Again, thank you for the opportunity to participate in this 
Senate subcommittee hearing. We have enjoyed working with the 
State of Montana on this study.
    Senator Crapo. Thank you very much, Colonel.
    Mr. Graham?

    STATEMENT OF PATRICK J. GRAHAM, DIRECTOR, MONTANA FISH, 
              WILDLIFE AND PARKS, HELENA, MONTANA

    Mr. Graham. Mr. Chairman, Senator Burns, thank you for 
coming to Montana and the community of Glasgow to conduct this 
field hearing.
    I am Pat Graham, director of the Department of Fish, 
Wildlife and Parks, for the record. I am here today to testify 
in support of the multi-species fish hatchery which has been 
proposed to be built below Fort Peck Dam in Senate Bill 2027.
    Next year, the Department of Fish, Wildlife and Parks will 
be observing our 100th anniversary. We will celebrate a century 
of successful conservation efforts during which we helped 
restore fish and wildlife populations in the State from 
historic lows to the general abundance we have today.
    The challenges of the next century may prove to be just as 
daunting. The demand for opportunities to fish, hunt, and 
otherwise interact with wildlife are growing, as are the costs 
of conserving habitat, providing access, and addressing the 
needs of federally listed species. Our financial resources, as 
a result, are stretched to the limit.
    The growing demand for warm-water fishing, particularly on 
Fort Peck Reservoir, combined with the needs of addressing 
species like pallid sturgeon and sauger, are indicative of the 
issues we face.
    Angling use on Fort Peck Reservoir has steadily increased. 
Since we completed our first warm-water fish plan for the State 
in 1985, fishing use on Fort Peck Reservoir has tripled. Fort 
Peck has never been an easy reservoir to manage for fisheries 
because of the water fluctuations during drought years and 
providing water for downstream interests, as well as the fact 
that the shale substrate in the reservoir makes it unsuitable 
for spawning for species like walleye.
    As a result, fisheries management has relied heavily on the 
use of hatcheries stocking to provide a fishery since 1942.
    It was in 1983 when the U.S. Fish and Wildlife Service 
decided to abandon its warm-water fish hatchery at Miles City, 
but the State's interest in this began to expand. At that time, 
the Legislature made a determination that the Department of 
Fish, Wildlife and Parks would take over that facility. Quite 
frankly, it was falling apart, but it, nonetheless, became the 
cornerstone for development of the warm-water fish program.
    Over the next 14 years, we invested $6.5 million in 
rehabilitating that facility. Today, 75 percent of the 
production from that facility goes to a single body of water, 
and that is Fort Peck Reservoir.
    Fort Peck could utilize even more walleye. The rest of the 
State does not have its needs met, either.
    When the Legislature last met in 1999, they were made 
aware, as Senator Kitzenberg--Senator, he hopes--Representative 
Kitzenberg mentioned----
    [Laughter.]
    Mr. Graham.--they were made aware of the need to construct 
a multi-species hatchery for Fort Peck, and it passed in the 
form of House Bill 20. And it also created a warm-water fishing 
stamp to assist in funding the project.
    During the debate, recognition for the need of a hatchery, 
the Legislature was convinced of the need for the hatchery, but 
that was tempered with a strong feeling that the hatchery would 
be largely a Federal responsibility. And Montana's conclusion 
that it should be a Federal responsibility, in large part, is 
due to some of the unfulfilled promises from the Pick-Sloane 
legislation, which I mention in my testimony in more detail.
    In addition, we believe it is consistent with the Federal 
Projects Recreation Act.
    Montana also believes that we contributed fairly to the 
recreational fish and wildlife development of the Fort Peck 
Reservoir over the past 53 years, and Senate Bill 2027 
recognizes that contribution by allowing Montana to use our 
contributions as a match for the construction of the hatchery, 
and we appreciate that recognition. We have calculated costs 
since 1983, and we estimate that Montana has spent in excess of 
$11 million.
    The other issue is who pays and how much for the ongoing 
operation of the hatchery. The annual cost for the State to 
rear and stock fish at Fort Peck Reservoir were estimated. We 
estimated those costs for a time when the Fort Peck hatchery 
would be completed at an annual cost of about $750,000 a year. 
What that includes is a cost for egg collection, the operation 
of the Fort Peck hatchery, and 75 percent of the cost of the 
Miles City hatchery, including the cost of distribution of 
those fish.
    Montana will pay for the collection and transportation of 
the eggs, will pay for the operational costs of the former 
Federal hatchery at Miles City, and the costs of distribution 
of those fish, in an amount of $395,000 a year. In addition, 
revenues generated from the warm-water fish stamp are estimated 
to be between $100,000 and $125,000 a year currently. We hope 
that that number will continue to grow.
    The Legislature limited by statute Montana's contribution 
to the hatchery to the dollars generated from the stamp. These 
expenditures collectively will equal two-thirds of the cost to 
stock and rear fish for Fort Peck Reservoir. We believe that's 
a fair contribution.
    The Federal portion then would be one-third of the cost, 
which would primarily be for the day-to-day maintenance and 
operation of the Fort Peck facility.
    The State, in addition, is spending over a quarter of a 
million dollars per year on endangered pallid sturgeon, sauger 
restoration at our fisheries.
    In conclusion, I would like to thank you both for coming 
here today and let you know that we strongly support Senate 
Bill 2027.
    [Applause.]
    Senator Crapo. Thank you very much, Mr. Graham.
    Mr. Clinch?

   STATEMENT OF BUD CLINCH, DIRECTOR, MONTANA DEPARTMENT OF 
      NATURAL RESOURCES AND CONSERVATION, HELENA, MONTANA

    Mr. Clinch. Senator Crapo and Senator Burns, first I'd like 
to thank you for inviting me to provide testimony here this 
morning.
    For the record, my name is Bud Clinch, and I am the 
director of Montana's Department of Natural Resources and 
Conservation, but for purposes of today's testimony, I am 
speaking to you on behalf of a much larger group, the Missouri 
River Basin Association.
    The Missouri River Basin Association is a group of 
Governor-appointed representatives from each of the States that 
border on the Missouri River, and that would be Iowa, Kansas, 
Missouri, Montana, Nebraska, North Dakota, South Dakota, and 
Wyoming. In addition, we have one representative from a 
coalition of tribes.
    MRBA has been involved with Missouri River Basin issues for 
nearly a decade. Over the last 5 years, at the request of the 
Corps of Engineers, we began to develop recommendations on a 
river operating plan. As you may be aware, similar to the 
controversy that has existed on the Columbia River Basin in 
your home State, similar controversies have surrounded 
operation of the Missouri River for decades.
    Our involvement, at the request of the Corps, was to try to 
bring some closure to those conflicts associated with water 
reservation, storage levels, and downstream uses for water 
supply, hydroelectric, as well as navigation.
    Over those 5 years, we conducted a number of hearings, 
bringing constituents together from the various constituency 
groups across the basin, and several people from the Montana 
contingency are in this room.
    Throughout that process, we ultimately came to some 
consensus recommendations that the entire basin could support 
relative to development and activities with the Missouri River 
operations. One of those recommendations was the expansion of 
recreational opportunities up and down the basin, and included 
in that recommendation is the recommendation for a fish 
hatchery to be built at Fort Peck.
    MRBA has worked with water users and interests to address 
the more-difficult issues of drought flow management and 
recovery of the basin's threatened and endangered species, as 
well. The entire basin supports the concept of increased 
recreation and development of a fish hatchery at Fort Peck for 
a variety of reasons. Many of those have been stated, but let 
me reiterate those.
    The development of a fish hatchery at Fort Peck will help 
turn Fort Peck Reservoir into a world-class fishery. The fish 
hatchery will be good for the economy of the State and the 
region, and improvements to the Fort Peck fish hatchery will 
draw fishermen and recreationists from around the country.
    The fish hatchery would provide mitigation for the ongoing 
impacts to the Fort Peck fishery from the river system 
operations in water releases for downstream users.
    In addition, the warm-water fishery can augment pallid 
sturgeon, a federally listed species. Sturgeon fry could then 
be released into their traditional waters of the Yellowstone 
River and the Missouri River below Fort Peck.
    In summary, the fish hatchery at Fort Peck makes good 
economic sense and environmental sense. Fort Peck Reservoir has 
incredible fisheries potential for multiple species if 
appropriate stocking rates can be implemented. Now is the time 
to invest in such projects because of the upcoming 
commemorations of the Lewis and Clark journey, when we are 
faced with tens of thousands of additional tourists coming to 
this region.
    The fish hatchery can enhance the reservoir attraction, it 
can restore an endangered species, and it can provide for 
economic growth. For all of those reasons, MRBA urges your 
support of Senate 2027.
    In addition, I'd also like to remind you that, as this 
legislation goes forward through our affiliation with the other 
basin States, that we can provide you with additional support 
from Senators from our neighboring States. I know that Senators 
Kerry and Bond have legislation pending, as well, relative to 
the fish and wildlife mitigation measures on lower sections of 
the river and it is likely that the Kerry bill may become 
attached to the WRDA bill. I think there are some natural 
coalitions that can be developed here that are far broader than 
Montana, and we look forward to helping you with those matters.
    Thank you.
    Senator Crapo. Thank you very much, Mr. Clinch.
    Senator Burns, would you like to ask questions?
    Senator Burns. You've got one great supporter of this that 
doesn't live here, so you can't go anywhere that you can't get 
beat on on this, Sam. It's on both ends of the State. You can't 
go to Flathead and expect any relief.
    [Laughter.]
    Senator Burns. Tell me, on the basin, on that coalition, 
could they or would they or can they provide some financial 
help on the O&M? Do you know if that's possible, as we wrestle 
with dollars on the operation and maintenance, have we got a 
proper estimate on what it is going to cost to operate it after 
we build it?
    You might want to take a shot at that Colonel, or anyone.
    Mr. Clinch. My affiliation with the Missouri River Basin 
Association is annual and monthly meetings with other program 
directors like myself. Relative to the financial aspect, are 
there financial aspects that I could bring to the table from 
the State of Montana? I don't know. I have no indication if any 
other State is willing.
    What we would probably would do is collectively to lobby 
Federal legislation to get dollars either through the Corps or 
Fish and Wildlife Service budget, or something similar to that.
    We have discussed funding for a variety of the other 
recommendations that we've made relative to the Missouri River, 
and we do have broad support from all those eight States for 
those efforts.
    Senator Burns. Pat, do you want to walk us through that 
part of your testimony on the financial support and how much we 
can expect and what is expected from other folks, as far as the 
O&M, after we build it?
    Mr. Graham. Certainly, Senator.
    Attachment eight to our testimony basically lays out our 
best estimates at this point. We are estimating that, by the 
time that all of this were to come to pass, it will probably be 
about 2005 before we will actually have a fully functioning 
operation, so those are years we tried to estimate the costs.
    What we did was we talked those out across the board with 
what it costs, what we believe it will cost to manage this 
reservoir fishery and the hatchery program, which includes the 
egg taking and the distribution, as well as the daily operation 
cost for 75 percent of the Miles City hatchery.
    What we're estimating on the Fort Peck hatchery is it would 
be about $375,000 a year operations costs--again, those are 
estimates--of which, we are again estimating--we're just in the 
first year of collection of revenues through the warm-water 
fish stamps, and we don't have a hard dollar figure on that, 
but we're estimating $125,000 for that stamp, and that will go 
directly into offsetting that $375,000, so that will bring that 
number down to $250,000.
    In addition, we would pick up roughly $100,000 a year of 
cost relative to egg collection and fish distribution, and then 
about $300,000 a year is what 75 percent of our Miles City 
hatchery costs for stocking fish.
    So that's where the numbers come from. All together, that 
is about $750,000.
    Senator Burns. For the record, give me an estimate on the 
difference in the size of the facility that you have at Miles 
City and what we would have here.
    Mr. Graham. The facilities really aren't that different in 
size. They are a little bit differently configured here in 
terms of surface acreage. We have some larger ponds at Miles 
City, so there would be more ponds but they would be smaller 
ponds in the Fort Peck hatchery. I think the Fort Peck hatchery 
would be somewhat larger, and maybe Colonel would want to speak 
to that. I can't give you the exact pond acreages without 
looking that up.
    In addition, there will be eight raceways at the Fort Peck 
hatchery that will provide chinook. And what we're looking at 
with the chinook is it's really a part of a three-State effort. 
As I'm sure Senator Crapo can appreciate and others, it really 
requires--because the salmon die after they spawn, you can't 
hold them. Whatever comes back is what we get. Each State goes 
its own way, and we have good years and bad years. So what the 
three States are trying to do--North Dakota, South Dakota, and 
Montana--is an agreement that we share our abundance as well as 
our difficult times, so we kind of develop a little bit more 
consistent fishery in all three States for chinook. That's 
where part of our multi-species comes from.
    The other part would be to provide some capability there to 
rear sauger, and pallid sturgeon, one of which is already 
listed as endangered and the other one is being considered to 
be petitioned. I think that will significantly alter and has 
already altered normal operations.
    Senator Burns. What really caught the eye of some of our 
colleagues in this, as far as providing funds and the 
authorization, is that this fishery actually had a great deal 
of flexibility, where we could deal with some of the endangered 
species. In other words, it has strong environmental plans for 
reestablishment of those species. I think it is a step in the 
right direction.
    Colonel, did you want to offer any comment with regard to 
that?
    Colonel Tillotson. The costs that we have projected--and 
this is a reconnaissance-level design--is we've got just under 
$330,000 is what we figured O&M costs would be.
    In doing a comparable analysis, we looked at two other fish 
hatcheries, one located in North Dakota and the Lost Valley 
Fish Hatchery, which is located the north side of Missouri, 
which was just completed in March, 2000. These were two similar 
type facilities that we were cost comparing in terms of 
construction and the O&M.
    Senator Burns. Thank you very much.
    Senator Crapo. Thank you.
    Colonel Tillotson, you referenced in your testimony that 
the Administration is developing a position. Do I take from 
that that the Administration does not yet have a position on 
this legislation?
    Ms. Brey. Yes.
    Senator Crapo. OK. Could you take this microphone and 
explain that a little better? There are no authorities for this 
under the current budget?
    Ms. Brey. Right.
    Senator Crapo. Would the statute clarify that?
    Ms. Brey. Yes. We are providing information for the 
legislation to help clarify what our authority would be. We 
currently do not have a position one way or another. The study 
we did was strictly from a feasibility level. We wanted to 
provide the technical information on which the State could make 
a decision whether a fish hatchery could be supported.
    Senator Crapo. Do you expect, then, that the Administration 
will not take a position on the legislation until Congress 
does, or do you expect a position recommending or upholding 
legislation would be taken by the Administration?
    Ms. Brey. I would think they would wait for the legislation 
before they take a position.
    Senator Crapo. All right. Thank you very much.
    Colonel and Pat, I may want to get both of you involved in 
this. As I read both of your sets of testimony and listened to 
it, I'm having a little difficulty comparing the numbers. You 
each approach it from different perspectives, as I see it. 
You've got different numbers in your testimony.
    Colonel, your testimony--why don't we start out with the 
construction of the facility and see if there are any 
differences there. It says total project costs will be 
$18,754,000; is that correct?
    Colonel Tillotson. That's an estimate. Yes.
    Senator Crapo. Pat, do you have any different numbers on 
that regard on the subject? And then, with regard to the 
operation and maintenance, Colonel, your testimony is just a 
little under $330,000--$328,950. And I believe that that is 
focused--well you've got categories there on what it is, but it 
is essentially the operation and maintenance of the fish 
hatchery facility, itself.
    Pat, you had some different numbers which were larger, but 
I assume that's because you were looking at a larger picture of 
what operations would be needed for the production and 
distribution of the fish, as well as maintenance of the fish 
hatchery; is that right?
    Mr. Graham. Mr. Chairman, I believe that it is a function 
of which year you choose to use the dollars, and what we tried 
to do in our chart is incorporate inflation for the actual year 
it would become constructed. So it would be--I don't think 
we're using different sets of numbers.
    Senator Crapo. The two of you don't think there's any real 
difference in the numbers except for the inflation factor?
    Mr. Graham. I believe that's the difference there. We 
propose it in 2005 dollars, an inflated amount for that period 
of time.
    Senator Crapo. OK. One of the questions I have is, after we 
boil all this down and we look at the various categories in 
your attachment eight, Pat, and I see the various sources of 
revenue support coming from the State of Montana, in terms of 
dollars, using the $330,000 figure, could you give me an 
estimate as to what portion of that the Federal Government 
could expect to be picking up on an annual basis?
    Mr. Graham. Of the $330,000?
    Senator Crapo. Yes.
    Mr. Graham. If our estimates are correct--again, we're 
making estimates on the warm-water fish stamp, so I can't be 
precise.
    Senator Crapo. I understand that.
    Mr. Graham. But it would be about $200,000.
    Senator Crapo. So the Federal Government would be looking 
at somewhere around $200,000 in this year's dollars?
    Mr. Graham. Correct.
    Senator Crapo. Colonel, where would that come from?
    Colonel Tillotson. That would come out of our own budget. 
Normally, we would not include it in, but, of course, if it was 
legislated we would do that.
    Senator Crapo. So, in other words, in the annual budget 
presentation to Congress, this will be included in what you 
request?
    Colonel Tillotson. If the legislation passes.
    Senator Crapo. Assuming the legislation passes.
    Colonel Tillotson. Yes. They have to have authorization, 
and it becomes part of their budget.
    Senator Crapo. Right. And, Colonel, I understand that the 
Corps has land available; that there is no problem with regard 
to the availability of the land?
    Colonel Tillotson. That's correct.
    Senator Crapo. Mr. Clinch, I was also very interested in 
your testimony with regard to the eight States and the tribes. 
Now, I understand the tribes are represented by one 
representative, but there are a number of tribes represented by 
that one representative on the coalition?
    Mr. Clinch. That's correct.
    Senator Crapo. So there are eight States and a number of 
tribes represented on the coalition, and the coalition, the 
MRBA, has taken a position toward this project?
    Mr. Clinch. That's correct. The issue first emerged early 
on in our process several years ago, when we were talking about 
various mitigation measures around the basin. I believe in the 
audience here is one of our representatives who carried that 
message to Bismarck, North Dakota, for our first meeting and on 
to the Kansas City meeting. The MRBA included this as part of 
the recommendations of the entire basin package that includes 
recreation and other economic developments up and down the 
basin.
    Senator Crapo. As you suggested in your testimony, I'm very 
familiar with the water management issues that we face in the 
Columbia River Basin during the salmon and steelhead issue, so 
I am interpreting what you are saying as the eight States that 
are involved in the Missouri River are looking at these similar 
types of issues with regard to water management and economic 
and recreational growth and environmental protection, and they 
are concluding that it is proper, for the management of the 
Missouri River at this point, that we proceed.
    Mr. Clinch. That's correct, Senator. Basically, the issue 
here has to do with the reservoir level that is maintained, and 
that is highly dependent upon the demands downstream for 
navigation. One year this reservoir is maintained at a full 
level and provides adequate recreational opportunities, and, 
then like we had in the late 1980's and early 1990's during 
drought years, it was drawn way down. Consequently, the 
fisheries are impacted.
    Those issues were all heavily debated and discussed as we 
talked about the continued operation of the Missouri River for 
all of the various users, and I believe that the consensus 
position reflected that while we can't give Montana a surety of 
maintaining the reservoir at the perfect level all the time, 
having a fish hatchery is one way to mitigate for the impacts 
associated with the fluctuating levels of the reservoir. That's 
a concept that our downstream representatives are willing to 
support, in exchange for us supporting some of the ongoing 
reservoir operations that impact us here in Montana.
    Senator Crapo. That's very helpful, because, as I indicate, 
the management of the entire Missouri River watershed, if you 
will, is impacted by the decisions made with regard to the 
management and operation of the Fort Peck Reservoir.
    Mr. Clinch. Very much so.
    Senator Burns. If the Senator would yield, we got in a 
terrible spat with Missouri and Kansas, if you remember, back 
in about 1992. We were going through some dry years, and they 
drew this reservoir way down, and Senator Baucus and I were 
very much involved, and all the Senators that represented those 
States.
    We took along on the point that they have railroads on both 
sides of that river all the way to Sioux Falls, if they wanted 
to use those railroads. Well, we got into a little water fight. 
How do we use the water?
    So let me ask a question on that. Are you fairly 
comfortable with the situation with the compact that we won't 
see those years again, that we can see a better, steadier 
maintenance of that flow?
    Mr. Clinch. I can't say I'm confident of that, Senator, 
because right now we are embarking on the process of review of 
the master control manual, and that's the guiding document that 
guides the Corps in how they manage those reservoirs during all 
of those various years.
    The 5-year process that I have been involved in with the 
neighboring States was aimed at trying to reconcile those 
differences that you referenced.
    We basically came to a consensus agreement; however, we 
recently found that there is some controversy associated with 
that now relative to the potential impacts that threaten two 
endangered species, both the pallid sturgeon and the piping 
plover, which is a shore bird that nests in the stream.
    So this process is ongoing as we speak right now, with a 
formal consultation between the U.S. Fish and Wildlife Service 
and the Corps relative to the development of the Master Control 
Manual. While that may seem like an obstacle, it really 
provides somewhat of a springboard for the issue before us. The 
pallid sturgeon is very much a species of concern nationwide. 
It has interesting impacts to our downstream States. That's why 
I said that I believe we can get broad support from those 
adjacent States who are concerned about water management and 
water releases in Iowa, Kansas, Nebraska, and Missouri if the 
hatchery can augment those populations, as well.
    Senator Crapo. So management of the hatchery has important 
environmental ramifications with regard to the entire Missouri 
River management?
    Mr. Clinch. Absolutely. And I think the dovetailing of it, 
both as a warm-water sport fisheries with the potential of 
rearing threatened or endangered species, is a vital link that 
will bring broad support. I think it can help us with these 
difficult resource issues well in the future.
    Senator Crapo. Thank you.
    My last question for this panel is back to you, Mr. Graham, 
and it sort of springboards from what we have just been talking 
about.
    In your testimony you talk about the Federal connection, 
why the Federal Government should be involved in the 
construction and operation and maintenance of this facility. 
Could you just elaborate a little more on that Federal 
connection? I know we've just been talking about part of it 
here.
    Mr. Graham. I talk about the more-recent part, the ongoing 
operations of the reservoir. Getting to that, I guess part of 
it started with the historical connection to the Pick-Sloane 
process in the State and the fact that, while there were a lot 
of projections made about the contribution to be made to 
agriculture, recreation, and other things, very little of that 
ever came to pass. Just a small percentage, less than 10 
percent--maybe more like 5 percent. The projections were never 
realized about that process, and probably won't be.
    So, from that perspective, this goes back to even longer-
term commitments, I guess, at the time people felt were made to 
invest in Montana as part of these projects.
    So, combining that with the ongoing issues related to the 
reservoir operation, endangered species, and recreational 
benefits that the State of Montana--you heard about the 
difficult times that the agricultural community continues to 
experience in the State. We have communities in the 
agricultural part of the State that feel sport fisheries could 
be an economic boost to their community, and that certainly 
sends, I think, a strong statement to all of us for investing 
in that.
    And so, from that perspective, I guess that the economic 
expectations that were created with Pick-Sloane may not have 
envisioned a fish hatchery at the time, in a lot of ways that 
is what it is going to take to continue to, in effect, grow a 
recreational base to get people to travel the distance to come 
to places like Fort Peck Reservoir to enjoy it.
    Senator Crapo. Thank you very much.
    Did you have anything further?
    Senator Burns. Just a followup with Pat.
    In your estimate, was the power cost figured into your 
figures, if we experience an increase in power costs?
    Mr. Graham. Senator, I'm not sure I can speak to that. I 
believe there were certain assumptions made about the power 
cost, and so I assume that for the assumptions we are both 
operating off of the same one, so I think that we have made 
some estimates about what the cost of power would be and those 
are calculated in there, and they were reduced rates over what 
we would get.
    I think, in my understanding, that would take some 
Congressional action.
    Senator Burns. Thank you.
    Senator Crapo. All right. We thank you very much. This 
panel will be excused.
    We will call up our third panel, which is: Mr. Chuck 
Lawson, chairman of Citizens for a Fort Peck Fish Hatchery; Mr. 
Robert McColly, Valley County Electric Cooperative; and Mr. 
Carl Seilstad, State president, Montana Walleyes Unlimited.
    Gentlemen, we thank you for coming before us today. We will 
go in the order indicated and start with you, Mr. Lawson.

 STATEMENT OF CHUCK LAWSON, CHAIRMAN, CITIZENS FOR A FORT PECK 
                FISH HATCHERY, GLASGOW, MONTANA

    Mr. Lawson. Mr. Chairman, first of all, I would like to 
thank you for inviting me here today to testify.
    For the record, my name is Chuck Lawson. I am the chairman 
of Citizens for a Fort Peck Fish Hatchery. I represent 
thousands of citizens, both resident and non-resident, who have 
come together to improve warm-water angling in Montana and at 
the same time try to help Montana's struggling economy.
    Statistics show that annual inflation in Montana has 
increased dramatically in the last five to 8 years. Some of 
these increases have been as much as 150 percent. We feel the 
need for a second hatchery is extremely critical.
    We had Senator Sam Kitzenberg offer legislation that a 
warm-water stamp would have to be purchased before angling for 
warm-water species, and legislation to propose the new fish 
hatchery. The funds from the warm-water stamp will be used to 
fund the administration, maintenance, and construction costs of 
the new hatchery. We took this piece of legislation through and 
got both the stamp and the hatchery passed into law.
    Our next step was the conceptual design and cost study for 
the Fort Peck hatchery. We needed to do this quickly because 
there is a amendment to the hatchery legislation that states 
that we must have full Federal funding by June 30, 2001, or 
this hatchery project will die.
    Senator Burns was instrumental in helping us find a 50 
percent cost share from the U.S. Army Corps of Engineers' 
planning assistance to States program. We needed to come up 
with the other 125. The State didn't have that money, so we 
approached our local bank and we asked if we could borrow 
$125,000 against the warm-water stamp.
    Our local banker stated he would check into this and let us 
know. At the same time, we got the go-ahead to use the stamp 
money to repay this loan. The stamp didn't go on sale until 
March of this year, and we needed that money in December of 
last year.
    About a week later, our banker called and stated that he 
had 14 banks, two credit unions, and a telephone cooperative 
that would take equal portions of this loan to loan us the 
money for the study.
    It was quite an accomplishment in a short time. It was a 
risk, because nobody knows for sure how much the warm-water 
stamp will raise.
    The study is now completed and has been given to the 
Montana Congressional delegation to try to secure funding for 
the hatchery. We believe that the Federal Government has some 
obligation to help with this funding. They came in and built 
that dam in the 1930's. Montana citizens were promised low-cost 
power, as well as irrigation water from the Fort Peck project. 
As of today, I don't know of anyone that operates or irrigates 
out of Fort Peck Reservoir on any big-scale basis, and the 
power that is generated here goes back east.
    So Montana and the citizens have been promised all of the 
benefits from Fort Peck, and, at the same time, Montana and its 
citizens have spent millions of dollars trying to improve 
recreation along Fort Peck Reservoir. When the dam was built, 
the water behind the dam flooded some of the most productive 
agricultural land in part of eastern Montana. Montana has also 
built access roads around the lake, and they have maintained 
these roads for many, many years.
    We also feel that the dams along the Missouri River has 
altered the migration of both the pallid sturgeon and 
threatened species, and we also know that sauger is a species 
native to the Missouri River and a very popular sports fish 
here in Montana. Their numbers are dwindling, and they are 
becoming a species of special concern for Montana's Department 
of Fish, Wildlife and Parks.
    We, as citizens, are not afraid to do our part. We have 
enforced a self-imposed $5 stamp, which will help pay for the 
operation and maintenance of the hatchery, once operational, 
and we will assist Fish, Wildlife and Parks in many areas of 
fish production, both monetary and with volunteer labor. So we 
are not asking the Federal Government to do this, but to be a 
partner with the State, the private sector, and citizens to 
help make this truly a win/win situation for all parties 
involved.
    Thank you, Mr. Chairman.
    Senator Crapo. Thank you very much, Mr. Lawson.
    Mr. McColly?

     STATEMENT OF ROBERT MC COLLY, VALLEY COUNTY ELECTRIC 
                 COOPERATIVE, HINSDALE, MONTANA

    Mr. McColly. Mr. Chairman, Senator burns, thank you for 
inviting me to testify at this hearing today.
    For the record, my name is Robert McColly. I am a life-long 
resident of Valley County, Montana. I am a former Board 
President and member of Valley Electric Cooperative of Glasgow, 
a former member of the Electric Consumers Association of 
Denver, former Board President and member of the Midwest 
Electric Consumers Association, and former board member of the 
National Rural Electric Cooperative Association of Washington, 
DC. I have been with the rural electric cooperative movement 
since 1964. Today I am speaking on behalf of Valley Electric 
Cooperative of Glasgow.
    First, I would like to assure you that we are very much in 
favor of the warm-water fish hatchery at Fort Peck, which is 
the subject of this hearing, S. 2027. We believe that its 
establishment will be beneficial to the entire State of 
Montana, as well as Valley County. We do, however, have some 
very serious concerns about the power supply provisions 
contained in section six, cost sharing, (b)(3), where it 
states, ``The Secretary of the Army shall offer to the hatchery 
project low-cost project power for all hatchery operations.''
    Marketing of power produced at Fort Peck and other Missouri 
River dams is not the responsibility of the Corps of Engineers, 
but rather the Western Area Power Administration, WAPA, which 
was established in 1977 for that specific purpose. All of the 
generated power is presently under contract. That means that 
any legislation enacted that calls for additional allocations 
of that power would withdraw power from existing customers. 
Valley Electric Cooperative can ill-afford the loss of that 
allocation.
    The Flood Control Act of 1944 provided that the federally 
generated power would be first offered to the consumer-owned 
utilities of the region, but that is not enough power to supply 
the rural electric demand. Basin Electric Cooperative and 
Montana Power Company are the main sources of that supplemental 
power.
    The hatchery will be the Valley Electric Cooperative 
service area. If Valley Electric supplied the power, the 
hatchery would receive the benefits of the Pick-Sloane power at 
least on the same basis as the rest of the consumers. Valley 
Electric is capable and willing to provide the electrical power 
for the hatchery facility and I strongly believe that is the 
proper and fair way it should be handled.
    Again, we are very much in favor of the proposed fish 
hatchery, but we just don't think the power for it should be at 
the expense of our rural electric customers.
    Thank you for hearing our concerns.
    Senator Crapo. Thank you very much, Mr. McColly.
    Mr. Seilstad?

 STATEMENT OF CARL SEILSTAD, STATE PRESIDENT, MONTANA WALLEYES 
                    UNLIMITED, ROY, MONTANA

    Mr. Seilstad. Mr. Chairman, Senator Burns, I would like to 
thank you for allowing me to testify.
    For the record, my name is Carl Seilstad, and I am the 
current president of Walleyes Unlimited. it is an honor to 
represent Walleyes Unlimited and all us warm-water fishermen 
across the State in promoting the multi-species fish hatchery.
    Walleyes Unlimited is an organization that helps promote, 
enhance, and protect the future of fishing in Montana. We have 
a membership in excess of 4,000 members. We have 18 chapters 
scattered across the State of Montana. Warm water anglers are 
all over the State.
    Individual citizens as well as various organizations have 
put forth a lot of time and effort to promote the hatchery to 
where it is today. People who have said that they do not even 
fish have jumped on board with us and are helping us out. This 
defines the amount of support we have received on the hatchery.
    As of April 23, 2000, $63,867 has been contributed to the 
hatchery fund. Walleye Unlimited chapters, private citizens, 
and various businesses and organizations have contributed to 
this fund. These funds are what is helping us pay off the loan 
that Chuck was talking about that we took on for the conceptual 
design.
    We as Walleye Unlimited members strongly believe the new 
hatchery will help preserve and protect the future of fishing 
for generations to come.
    Mr. Chairman, you've heard about the economic importance of 
the hatchery, endangered species, how fishing is increasing, 
but I think we're leaving out something here, and I'll go into 
that right now, and that's that our Walleye Unlimited chapters 
across the State each year conduct kids' fishing days. We teach 
young anglers knot tying, importance of catch and release, 
various fishing techniques and ethics. We feel it is very 
important to get our children involved in fishing.
    Montana Fish, Wildlife and Parks has started a program, 
``get hooked on fishing, not on drugs.''
    The schools and teachers across the State that are involved 
in this program, when they sign up for it they are sent fishing 
tackle from the State Fish, Wildlife and Parks and booklets on 
techniques and ethics of fishing. Field fishing days and 
classroom activities make this program very beneficial.
    Young kids, when they net their first walleye, it's just 
like their first deer they kill. They get a grin from ear to 
ear, and it is like you put a beam of light in them. They start 
glowing like crazy.
    We do all of these activities and programs for our future 
anglers. Let's ensure these young people we will have quality 
warm-water fishing in the State. The new warm-water, multi-
species hatchery will help make this goal a reality.
    Thank you.
    Senator Crapo. Thank you very much, Mr. Seilstad.
    Senator Burns?
    Senator Burns. I want to pursue this thing of power for the 
hatchery down there. We want to work with you and the 
cooperative in order to make that possible. What would be the 
difference in the cost of that power? Do you have a current 
estimation on that on the provision of providing power?
    Mr. McColly. Sir, I don't really know what the difference 
of cost would be. I know that each one of the rural electric 
cooperatives that have an allocation have turned that 
allocation over to Central Montana Electric Cooperative, which 
is the wholesale supplier to those rural electric systems in 
central Montana. It has been pooled there and redistributed on 
the per capita basis to the rural electric systems that are 
involved in it.
    It has been quite a few years since I have actually been 
involved in it, Senator, so I don't really know what those 
costs are.
    Senator Burns. You talk about all the power. Is there 
enough power? Do we have enough power?
    Mr. McColly. We have supplemental power that provides the 
rural electric systems, and most of that power is purchased 
from the WAPA. We take all the WAPA power that we can get, but 
they keep reducing it. In fact, at the end of this year we are 
going to lose 4 percent of the WAPA power. That is being 
reallocated to the tribes. That will come off of the allocation 
that we currently have.
    The power that we don't have, we don't have enough WAPA 
power to serve our systems, but the supplemental power we 
purchase from Basin Electric, which is a wholesale power 
supplier in Bismarck, and some of it from Montana Power 
Company. But we do not have enough WAPA power to supply our 
customers.
    Senator Burns. OK. I think this is probably our greatest 
challenge, the operation. We look forward to working with you 
to make sure we've got electricity to operate that thing. Thank 
you.
    I just want to take an opportunity to let everybody know 
Senator Baucus' State representative is here, Sharon Peters. 
Sharon, wave your hand back there. If you have questions of his 
office, Sharon is here and she will help you.
    I think that, in itself, as we move this legislation 
through, as it impacts the rest of your ratepayers, is where we 
find the challenge, and we look forward to working with you on 
that.
    Mr. McColly. We appreciate that.
    Senator Crapo. Thank you.
    Mr. McColly, I want to followup on that a little bit. Do 
you know what the average cost of power is for your 
cooperative?
    Mr. McColly. I'm sorry, again, Senator. I kind of retired 
from this business about 10 or 12 years ago and have been 
trying to stay away from it.
    [Laughter.]
    Senator Crapo. Smart move.
    I notice here in the report that the projected costs for 
electricity are about $31,250 per year. I know in your 
testimony that project rates for electricity is 2.5 mils, where 
the customers of yours were paying 13 and 14.54 mils. I don't 
know what rate the proposal is that the legislation contains 
right now, what that rate would be. Do you have an idea about 
that?
    Mr. McColly. I'm sorry. I don't have the foggiest idea.
    Senator Crapo. All right. Well, that's something we are 
going to have to investigate so we make sure we take into 
consideration the concerns you've raised. We do want to work 
with you on that.
    Mr. McColly. Thank you very much.
    Senator Crapo. Mr. Lawson, you indicated that the State 
legislation contained a deadline for a Federal commitment. Was 
that June 30th of 2000?
    Mr. Lawson. It is June 30th of 2001 that we've got to have 
a firm commitment of Federal dollars. I don't know if the 
amendment is specific as to how many Federal dollars.
    Senator Crapo. I was going to ask that next.
    Mr. Lawson. I know we do need some Federal commitment 
according to that amendment.
    Senator Crapo. All right. And I wondered in your testimony, 
where you talked about the connection to the Federal 
obligation, and you indicated that some of the Federal dams on 
the Missouri River have caused some species issues in terms of 
water flows and obstruction of fish paths in the river. Is that 
what the impact was?
    Mr. Seilstad. Yes.
    Senator Crapo. I want to say that I agree with the analysis 
that you and several others here have made that the Federal 
Government's interest in protection and management of 
endangered species involves not only just passing legislation 
to mandate the protection, but participating in that 
protection, because it becomes a Federal issue simply because 
of the costs that are imposed as a result of the Endangered 
Species Act, itself. That's a big issue that we are facing over 
in my part of the country with regard to the salmon and 
steelhead, as well. I have been saying the same thing for a 
long time. I'm glad to see the same issue in the context that 
you have here.
    I was also interested, Mr. McColly, in your testimony, 
because you pointed out something to me that may be understood 
but not recognized, which is that the changes in the management 
of the flows of the rivers that are mandated under the 
Endangered Species Act have, on occasion, caused the loss of 
power production, and that loss of power production, again, is 
a cost that we made, as a society, to achieve these purposes of 
the Endangered Species Act. It is, nonetheless, a cost that is 
imposed, in this case, on the customers of Valley County 
Electric Cooperative as a result of the efforts to protect and 
strengthen these species.
    It is very appropriate to do that, but it is also 
appropriate that we recognize that and recognize the fact that 
that cost is being born to pay for a Federal statutory mandate 
by the people of those communities, and one more reason for the 
justification of Federal involvement in putting together 
support for this facility so we can have Federal support for 
some of the management costs that are required in achieving 
these objectives. So I think that it was interesting to see 
both sides of that coming out.
    The last thing I will say, Mr. Seilstad, I don't have an 
actual question for you, just a comment. When you talked about 
the kids with the grin on their face when they catch their 
first walleye, well, I haven't had that grin yet.
    [Laughter.]
    Senator Crapo. Senator Burns, we've got to talk about this 
once we get back there.
    Senator Burns, did you have anything to say?
    One other comment I do want to say, as we are just about 
ready to wrap up, is related to--we are virtually on time. This 
is a great community.
    [Laughter.]
    Senator Burns. We never get done. This is the only place 
where you can be 15 minutes late and 30 minutes early all at 
the same time.
    Curtis Swanson is also here from Congressman Hill's office 
today. I saw him a while ago and spoke to him. I failed to 
introduce him.
    This is a delegation project, and we want to keep it that 
way if we possibly can to make sure it moves forward.
    I just want to say to the folks at Walleye Unlimited, 
nothing like this ever happens without somebody burning a lot 
of rubber off their tires and spending a lot of hours. All of 
this works together. You've got to pick up and do some things 
to make it work, and I want to thank you for that, all of you, 
because we know it is a labor of love and we don't get paid a 
lot for it. I guarantee you that. I guess it is in the smile of 
a kid.
    This is the only society in the world, folks, that we live 
today so that our kids will have a better tomorrow. All of us 
do that. It's in the history of this country. That's what built 
the country. All of us sitting here today for this fish 
hatchery cannot expect a lot of benefits in our lifetime, but 
think of the effect it will have for this community and the 
next generation and the next generation of Americans that come 
up to follow us. That's what this is all about. It's not about 
us. After all, I'm getting to the point where I'm just circling 
the drain.
    [Laughter.]
    Senator Burns. I just look around this crowd and we all do 
it for the next generation, because that's very, very important 
and that is the American way.
    Thank you for coming today. Thank you, Mr. Chairman. We 
welcome you to Valley County, Montana.
    Senator Crapo. Thank you, Senator.
    Senator Burns always brings us that down-home humor back in 
Washington. We look forward to it.
    He reminds me of another joke I heard, when you talk about 
Washington being one of the places where you can be 15 minutes 
late and still 30 minutes early to a meeting. I heard it also 
said that Washington is probably the only city in the country 
where you can drive from one side of the town to the other side 
of the town and never leave the scene of the crime.
    [Laughter and applause.]
    Senator Crapo. Let me also, before we close this hearing, 
tell you all, again, thank you very much for the warm welcome 
you have provided to me and to our committee.
    Senator Burns. If you have a statement that you want to 
leave with the committee, you may do that today. If you have 
prepared a statement, we're prepared to take them and they will 
be made a part of the record.
    Senator Crapo. That's right. And if you are not prepared 
today, we will leave the record open for several weeks, so you 
can get hold of Senator Burns' office and get your testimony to 
us through him if you aren't able to do it today, and we 
welcome you to do that.
    Once again, thank you for your tremendous Montana 
hospitality, for the interest that you have shown here today in 
this legislation, and I can tell you, as I did at the beginning 
of the hearing, you've made a convert out of me and I will go 
back and advocate this project very strongly with the chairman.
    Thank you very much. This committee is hereby adjourned.
    [Applause.]
    [Whereupon, at 12:05 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
Statement of Hon. Sam Kitzenberg, State Representative from Glasgow, MT
    Mr. Chairman, members of the committee: For the record, my name is 
State Representative Sam Kitzenberg from HD-96, which includes parts of 
Valleys County and all of Daniels Counter. I have served three terms in 
the Montana Legislature. During the last session--the 56th--I 
introduced HB 20 (the Fish Hatchery Bill) on the first day of the 
session. It passed the last day of the session.
    Fort Peck Lake is the largest body of water in Montana--and one of 
the last developed! It is 134 miles long and has an area of 
approximately 249,00 acres, which is more than the Pacific Coast of 
California. The potential for fisheries here is almost unlimited.
    Fort Peck is the 4th largest tourist stop in the State of Montana. 
Tourism is Montana's second largest industry. In 1996, visitors spent 
an estimated $1.26 billion. More than 60,000 jobs are directly related 
to travel and they account for $763 million in payroll.
    On a regional level, we hosted the In-Fisherman Professional 
Walleye tournament at Fort Peck Lake in 1997 and 1993. What did that 
mean to Montana's economy? The total economic benefit was $1.4 million. 
In 1995, 7 tournaments were held on Montana waters. These tournament 
participants spent $1.9 million in one summer.
    A study released by the American Sportfishing Association stated 
that the total economic impact of angler expenditures in Montana was 
$450 million in 1996.
    Salmon Fishing--which extends the fishing season into the fall--
brought $2,362,500 into our community in 1996 (peak year).
    Studies have shown that money is spent 7 times before leaving a 
community. This would equal $16,537,500 alone from salmon fishing in 
the Glasgow area.
    Here are some legislative reflections:
    ``MIRACLES COME AFTER A LOT OF HARD WORK.''--reads a Key Club 
banner at Glasgow High School.
    Yet, passing HB 20 through the 56th Legislative session of the 
Montana Legislature was a miracle. (Praise the Lord!)
    And, it took a lot of hard work by many individuals.
    I still remember the day that Chuck Lawson told me at Sagebrush 
Cellular that he had a great idea for a bill, and I asked him if he was 
serious about it. I remember flying to Billings with him and Roy Snyder 
to talk to the Walleyes Club about their support. Before take-off, he 
said, ``If you are shy about flying, you can sit in the front seat so 
you don't throw up on us.''
    ``Chuck, I'm not fearful of flying. I just don't want to hit a deer 
on the runway on take-off.''
    ``Sit down and shut up or I'm going to put a bag over your head,'' 
Chuck said.
    And, off we flew . . . to many Walleyes Meetings in Eastern 
Montana. Most of the time, we drove . . . getting home late . . . or 
early in the morning.
    Myron Gartner was along, too, tirelessly contracting and erecting 
over 80 signs--sometimes at a cost of $140 each--throughout Eastern 
Montana.
    Fort Peck Lake Manager, Roy Snyder, our facilitator, came along 
too--offering sound advice, hope--and free land for the rearing ponds.
    Then, the Legislative battle began . . . with 50,000 copies of 
literature, phone calls, letters, etc. In fact, one of the top five 
issues that legislators received more mail and call about was the fish 
hatchery.
    I remember thinking going into the first committee hearing of the 
House Fish Wildlife & Parks Committee hearing in the House that we were 
(maybe) . . . two votes shy of passage. (It could have ended that day!) 
But, the bill swayed in the wind like a giant Ponderosa Pine deciding 
which way to fall after being cut . . . and passed out of committee!
    I remember the day I carried the bill on the floor of the House. I 
wore ``my lucky fish hat.'' After 2-hours of debate, my soaked dress 
shirt . . . the bill sailed on . . . .
    ``Will you need the large Senate hearing room?'' the chairman of 
the Senate Fish and Game Committee asked me. ``I hear there are a lot 
of people coming,'' he added. It was a ``packed house'' in room 345 
(the old Supreme Court room) when the bus from Glasgow showed up after 
an exasperating bus trip--a 23-hour trip, with 19 spent on the Scotty 
Cruiser.)
    Finally . . . the bill took flight Senate and flew through the 
Opposition began to dissipate--especially after one fellow from the 
Mile High Fishing Club in Butte got up and said: ``You Canadians out 
there in Eastern Montana . . . .'' (He got a round of laughter and a 
red face!)
    The same cooperative spirit that built Fort Peck Dam in the 1930's 
came alive again in Eastern Montana to pass HB 20 through the Montana 
Legislature.
    Lewis and Clark (Chuck and Myron) braved uncharted territory 
through Montana again to find ``a better world''--a path through the 
Wilderness of Economic Depression.
    Congress may choose to do nothing . . . to take lightly our efforts 
. . . to never allow the Fish Hatchery ``to hatch.''
    But . . . a better path would be to follow in our footsteps toward 
a better tomorrow.
                                 ______
                                 
                        Glasgow MT Proclamation
                 fort peck hatchery day--april 29, 2000
    Whereas, Saturday, April 29, 2000, from 10:00-11:30 a.m., has been 
proclaimed as Fort Peck Hatchery Day.
    Whereas, a Senate subcommittee will hold a field hearing in Glasgow 
at the Cottonwood Inn, chaired by Senator Mike Crapo (R-Idaho), 
chairman of the Senate Subcommittee on Fisheries, Wildlife and Drinking 
Water,
    Whereas, donations from various organizations total nearly $64,000 
with a goal of $125,000, and the money will be matched with Federal 
dollars to complete the study required to get the next step for funding 
the new hatchery,
    Whereas, Senator Conrad Burns has introduced a bill to the Senate 
authorizing $10 million for the construction of the Hatchery and as the 
Fort Peck hatchery will contribute to increased recreation in eastern 
Montana and improve the strength of fish population in Montana's rivers 
and lakes,
    Now, Therefore, I, Wilmer F. Zeller, by virtue of the authority 
vested in me as Mayor of the City of Glasgow, do hereby proclaim 
Saturday, April 29, 2000, as Fort Peck Fish Hatchery Day throughout the 
City of Glasgow,
    In Witness Thereof, I do hereby set my hand and cause the Corporate 
Seal of the City of Glasgow to be affixed this 26th day of April 2000.
                                    Mayor Wilmer F. Zeller.
                               __________
       [From the Good Evening Glasgow, Monday, January 11, 1999]
               Eastern Montana agrees: It's a No-Brainer
    While efforts to gain support for the proposed warm-water multi-
species fish hatchery at Fort Peck have been going on for several 
months, HB 20 and HB 26. introduced by Representative Sam Kitzenberg 
are now on the grinding stone in Helena.
    It is now up to the House Fish, Wildlife and Parks Committee to 
pass it into Congress, which could happen possibly tomorrow.
    Proponents that spoke of the fish hatchery were mostly from eastern 
Montana, but there was western support there as well. Opponents were 
few, but it was rather obvious to those present Thursday that Pat 
Graham, Director of Montana Fish, Wildlife and Parks was not in support 
of the fish hatchery, although he was to speak as a ``noponent'' (not 
taking sides). Other opponents included Trout Unlimited.
    Those opposing the fish hatchery's main concern was money: where 
would it come from?
    Bruce Farling, Director of Trout Unlimited, spoke against the 
hatchery.
                                 ______
                                 
                The Need for a Warm-Water Fish Hatchery
    The clay bottom and the rise and fall of water levels at Fort Peck 
Reservoir are the worst climate for the natural spawn of warm-water 
species of fish.
    The Miles City Hatchery, although state-of-the-art, is not capable 
of rearing enough fish to supply ail of the reservoirs and rivers in 
the state that are stocked with warm-water fish. In addition, the Miles 
City Hatchery is the only hatchery in the state that raises the warm-
water species, learning no backup f screeching were to happen at that 
location.
    Sauger, a native warm-water species found in the Missouri and 
Yellowstone River systems, are down in number and, at present, there is 
no source of artificial reproduction available. The proposed Fort Peck 
Multi-Species Fish Hatchery could and most probably would provide this 
much-needed facility. If sauger are listed as endangered, we will all 
wish we had done something differently.
    Fishing pressure in the state of Montana has risen 60 percent in 
the last few years, both from out of state and locally The hatchery 
system, however, has not been increased and has not fulfilled the needs 
of state biologists in their stocking work. Montana has the lowest 
plant of fingerling fish of the Missouri chain of reservoirs; 
fingerlings have the best rate of survival among fish hatchery groups. 
Because the Department of FWP doesn't have the rearing space, it plants 
25 to 30 million fry which have a very low survival rate.
    Along with the 60 percent increase in fishing pressure to the state 
comes economic growth. The tourist industry in the state if very good 
when fishermen are catching fish. The funding that we get from this 
source helps to pay for better facilities through the Fish and Game 
Department. It also brings another source of revenue for the State of 
Montana.
    In the past, most of the funding for fish hatcheries has gone to 
the cold water or ``Trout'' end of things. At the present time, these 
hatcheries are getting funding for seven locations. This is all and 
well except that one-half of the water in the state is warm-water 
oriented!
    The population of Chinook Salmon has been anything but stable in 
the last few years. It is the hope of Montana sportsmen and women that 
this hatchery would provide a positive alternative to what we have seen 
in the past. If egg-taking can be accomplished, we can raise these fish 
here rather than going to other states for them, thus lowering the risk 
of disease to Montana waters.
    We need to find another egg source for walleye eggs as all of the 
states' eggs are taken from the Nelson Creek spawning station. If this 
source became contaminated or the weather interrupted the spawning 
cycle, we could lose a whole year's class of fish.
    We need to establish a viable bait-fish population. At the present 
time, there are no bait-fish being raised at Miles City and there isn't 
any room to raise them. Many of our warm-water lakes need to establish 
a bait-fish population. The new hatchery will help that need.
    We have a catch-rate on Fort Peck Lake of .26 fish per hour. That 
is the lowest catch-rate of any of the mainstream reservoirs. This 
equates to two fish in an 8-hour angling day.
    We need to have more vision that the Warm-Water Management Plan has 
given us. We need to sell the $5.00 Warm-Water Stamp so we can: 1. Fund 
the new hatchery at Fort Peck, 2. Pay the operations maintenance and 
FTE's of this hatchery, and 3. Help to set up a Future Warm-Water 
Fishing Fund, if any moneys are left over.
    To sum up why we need a warm-water hatchery at Fort Peck, it is for 
the future. If we do not take care of our fishing now, it could very 
well be that future generations will have nothing but pictures and a 
bunch of dusty stuffed fish to show them what used to be!
                               __________
   Statement of Hon. Eleanor Pratt, Chairman, Valley County Board of 
                             Commissioners
    For the record, my name is Eleanor Pratt, Chairman of the Valley 
County Board of Commissioners. I extend a cordial welcome to you, 
Senator Crapo, and the committee and a thank you to Senator Burns for 
sponsoring this meeting.
    Mr. Chairman, I feel the most important message that I can convey 
to you is that our entire community is in favor of the Fort Peck Fish 
Hatchery. Since it was first proposed in 1997, people from throughout 
the community and many from across the state, from all walks of life, 
have jumped on the bandwagon to promote this new fish hatchery. They 
have contributed money, written letters of support and traveled to 
meetings, all of which adds up to countless hours of time and all at 
their own expense.
    The economic base for this area is farming, ranching and tourism. 
The fish produced should be compared to a commodity like that of grain 
and cattle. Therefore, having a fish hatchery at the Fort Peck 
Reservoir makes ``good'' economic sense because it would be an 
environmentally sound resource for this county, as well as the State of 
Montana. This part of Montana is known as Missouri River Country, and 
the tour guide brochures promote fishing at the Fort Peck Lake.
    The Fort Peck Reservoir is the Riviera of Northeast Montana--a 
diamond in the rough--the potential of which, some 66 years after its 
construction, has still not been realized. Those who appropriated the 
funds to build the reservoir had no vision of how time would change the 
lifestyles of Americans. Travel in the 1930's was limited to the 
wealthy. Today, travel is for the majority of Americans--young and old. 
Fishing is ``big business' and fisherman dollars are ``good for the 
economics'' of Valley County and all other counties bordering the 
Reservoir.
    The need for economic help, better described as survival, for 
Valley County and the other rural counties with access to the Reservoir 
is stated by listing their annual per capita income*:


------------------------------------------------------------------------

------------------------------------------------------------------------
Valley County......................  $18,999
Fergus.............................  17,921
McCone.............................  15,729
Phillips...........................  15,171
Garfield...........................  13,777
------------------------------------------------------------------------

    To further emphasize the severe economic concerns of Montanans, 
Governor Racicot has called for a Special Legislative Session to begin 
on May 8th to specifically address economic development.
    Good, productive land was taken for the Reservoir, and the taxes 
that had been paid to the county were lost forever.
    In summary, Mr. Chairman, we need your help, and that of your 
committee, to make the Fort Peck Fish Hatchery a reality. The support 
for the project is overwhelming--it is a cooperative effort--local, 
state and Federal. The fish hatchery is important for the counties with 
access to the Reservoir and for the entire State of Montana.
    Thank you for allowing me time today to testify before your 
Subcommittee in SUPPORT for the Fort Peck Fish Hatchery Authorization 
Act of 2000.
                               __________
   Statement of Colonel Mark E. Tillotson, District Engineer, Omaha 
     District, U.S. Army Corps of Engineers, Department of the Army
Introduction
    Mr. Chairman and members of the Subcommittee, I am Colonel Mark E. 
Tillotson, District Engineer, Omaha District, U.S. Army Corps of 
Engineers. With me today are Debra Brey, the Planning Assistance to 
States Program Manager for the Omaha District and two other Corps 
district individuals who were instrumental in completing this study--
Ted Streckfuss and Randy Sellers. Thank you for this opportunity to 
present a statement on the findings of our study of a proposed fish 
hatchery at Fort Peck, which we conducted for the State of Montana 
under our Planning Assistance to States (PAS) Program, authorized by 
Section 22 of the Water Resources Development Act of 1974, as amended. 
I understand that the Administration is developing a position on S. 
2027, the Fort Peck Fish Hatchery Authorization Act of 2000, which 
would authorize Federal construction and cost-sharing of the hatchery.
Fort Peck Hatchery Section 22 Study
    From December 1999 through March 2000, at the request of the State 
of Montana Department of Fish, Wildlife, and Parks and local interests, 
the U.S. Army Corps of Engineers conducted a reconnaissance-level study 
of and prepared a conceptual design plan for a proposed multi-species 
fish hatchery at Fort Peck, Montana under the Section 22 authority. For 
the study, the hatchery was sited on a 94-acre parcel of land 
downstream from Fort Peck Dam. In general, the study discussed (l) the 
need for and impacts of having a second warm-water fish hatchery in 
Montana; (2) the types and production numbers of fish proposed for 
propagation at the facility; (3) opportunities for raising endangered 
species, such as the pallid sturgeon; (4) a preliminary design and cost 
estimate for construction and operation and maintenance of a fish 
hatchery; (5) the availability of Corps land for the project; and (6) 
the availability of high-quality water and affordable power to operate 
the facility.
    Through a collaborative effort, the Corps of Engineers and the 
Department of Fish, Wildlife, and Parls determined that a facility 
consisting of 54 rearing ponds (having a total of 49 surface acres of 
water and a hatchery building approximately 22,000 square feet in size 
could be accommodated on the proposed site. This facility would provide 
a reliable and cost-effective means of producing the desired fish 
species to meet the needs of the State of Montana including walleye, 
sauger, tiger muskie, northern pike, chinook salmon, largemouth bass, 
smallmouth bass, and catfish. The hatchery would also support the 
propagation of the endangered pallid sturgeon.
    The study was completed on schedule. A summary report of the basic 
study findings was provided to the study sponsor in mid-March 2000, and 
the main report was provided at the end of March 2000. Total study 
costs were $250,000, with the State and the Corps each providing 
$125,000.
Conclusion
    Mr. Chairman, this concludes my statement. We would be happy to 
answer any questions you may have. Thank you again for the opportunity 
to participate in this Senate Subcommittee hearing. We have enjoyed 
working with the State of Montana on this study.
                                 ______
                                 
                    Fort Peck Fish Hatchery Proposal
              prepared by the u.s. army corps of engineers
                 Chapter 1: General Project Information
1.1 Introduction
    Within northeastern Montana, the Missouri River and Fort Peck Lake 
provide a high-quality water source suitable for the development of a 
fish hatchery. Increased fishing pressure on Fort Peck Lake and 
throughout the State has led to the need for a multi-species fish 
hatchery capable of meeting the State's existing and future fish 
production goals. The limited number of cool- and warm-water hatcheries 
in the State makes the construction of this hatchery especially 
critical. Hatchery fish will be used to stock Fort Peck Lake and other 
Montana fisheries, as necessary, to help the State of Montana remain 
self-sufficient in maintaining and managing its fishery resources.
    The primary goal of the Fort Peck Fish Hatchery will be to supply 
large numbers of high-quality fish for the sport fisheries in the 
State. It could also allow Montana to focus on using the new hatchery's 
state-of-the-art capabilities for production of the endangered pallid 
sturgeon as well as other State and Federal species of concern. For 
existing State and Federal facilities to match these capabilities, 
potentially time-consuming and expensive upgrades would be necessary. 
The construction of the Fort Peck Fish Hatchery could fill an existing 
void in the recovery effort for this fish as well as other species of 
concern.
    At this time, Montana's fish production needs are addressed through 
the operation of nine hatcheries scattered throughout the State. Of the 
nine hatcheries in use, eight are devoted to cold-water production 
(trout and salmonid). The ninth hatchery, located at Miles City, 
struggles to meet the State's needs for cool- and warm-water fish 
production. The existing State hatchery facilities can only maintain 
the current levels of production and are unable to meet the existing 
and future demand. An additional hatchery is needed to address the 
expected fish production shortfalls caused by future increases in 
fishing demands in Montana. This need leads to the requirement for 
supplemental fish production facilities that the proposed hatchery at 
Fort Peck will meet.
    This summary report provides some of the major highlights of the 
much larger main study entitled ``Final Report--Preliminary Design 
Study and Environmental Assessment: Proposed Fish Hatchery at Fort 
Peck, Montana,'' which was released at the end of March 20
1.2 Study Authority
    This study was initiated under the Corps of Engineers' Planning 
Assistance to States (Section 22) Program in response to a request from 
the State of Montana Department of Fish, Wildlife, and Parks. The State 
requested that the Corps of Engineers evaluate the feasibility of 
developing a fish hatchery at Fort Peck and, if feasible, prepare a 
reconnaissance-level design of such a facility. Authority for 
conducting this study is contained in Section 22 of the Water Resources 
Development Act of 1974, as amended. The study was cost-shared, with 
the Montana Department of Fish, Wildlife, and Parks providing 50 
percent of the study cost.
1.3 Fish Production Needs
    The new fish hatchery described in this report is intended to 
bridge the required production deficit. This hatchery will provide a 
reliable and cost-effective means of producing the desired high-quality 
fish species necessary to stock Montana's fisheries, including Fort 
Peck Lake. This hatchery will be used to culture cold-, cool-, and 
warmwater fish species, with the potential to address needs relative to 
endangered species such as the pallid sturgeon and other species of 
concern. Fish production at the new Fort Peck Fish Hatchery will 
emphasize the propagation and rearing of walleye (Stizostedion 
vitrium), sauger (Stizostedion canadense), tiger muskie (Esox 
masquinongy x Esox lucious), northern pike (Esox lucious), chinook 
salmon (Oncorhynchus tshawytscha), largemouth bass (Micropterus 
salmoides), smallmouth bass (Micropterus dolomieui), pallid sturgeon 
(Scaphirhynchus albus), and, possibly, channel catfish (Ictalurus 
punctatus), should the need arise. Species of special concern could 
include the blue sucker, short-nose gar,and the sicklefin chub. These 
fish species will be spawned and reared to various sizes, including 
fry, fingerlings, and catchables, according to the needs of the State 
fisheries program.
    A location map showing Fort Peck Lake is depicted on Plate 1 at the 
back of this summary report. The actual location of the Fort Peck Fish 
Hatchery will be adjacent to the Missouri River, downstream from Fort 
Peck Dam, on a 94-acre parcel owned by the Corps. The hatchery location 
is illustrated on Plate 2.
1.4 Hatchery Facilities
    Rearing facilities at the hatchery will include 49 surface acres of 
various sized ponds for extensive and semi-intensive culturing. The 
proposed pond configuration is based on two 2-acre ponds, 38 1-acre 
ponds, and 14 0.5-acre ponds, for a total of 54 rearing ponds. The 
ponds will be lined with high-density polyethylene to facilitate and 
enhance the pond performance. The ponds will be equipped with external 
catch basins (kettles) for efficient fish harvesting. The rearing 
facilities are currently configured for no more than six ponds per 
kettle. A two-cell, 3.9-acre effluent pond will be constructed to 
collect all water used at the hatchery prior to discharge back into the 
Missouri River. This effluent pond will allow for the settling and 
removal of suspended solids. Intensive fish rearing will be 
accomplished through the use of eight raceways plumbed to receive 
either well or surface water supplies. The raceway dimensions will be 
60 feet long by 6 feet wide, with a water depth of 3 feet.
    The hatchery building will have nearly 22,000 square feet of floor 
space, of which over 17,500 square feet will be designated as the fish 
production area. The production area will include a pathology 
laboratory for fish examination and measurements, a feed laboratory for 
limited feed formulation and storage, and incubation and rearing areas. 
Crew quarters, of rices, and limited tourist facilities will occupy the 
remainder of the floor area.
                Chapter 2: Fish Production and Processes
2.1 Introduction
    Fish production requirements for the Fort Peck Fish Hatchery were 
determined based on extensive input provided by the State of Montana 
Department of Fish, Wildlife, and Parks. Montana fish production needs 
were discussed with regard to the site and water supply considerations 
as well as to the economic constraints.
    Table 2.1 lists the species, quantities, and sizes of fish to be 
produced at the hatchery. This information provides the basis for the 
facility predesign. As a result of the need for flexibility, the 
initial production program was designed to utilize both intensive and 
extensive culture practices, taking advantage of both the site area and 
the available water supply.

                                                    Table 2.1
                                       Recommended Plan--Production Goals
----------------------------------------------------------------------------------------------------------------
                                                                                                         Harvest
                    Species                         Quantity              Size and Description             Date
----------------------------------------------------------------------------------------------------------------
Walleye........................................      50,000,000  Fry...................................    4/25
Walleye........................................       2,500,000  2'' + fingerlings.....................    6/30
Sauger.........................................       2,500,000  Fry...................................    5/25
Pallid sturgeon................................         Unknown  Unknown...............................     TBD
Tiger Muskie...................................           5,000  6'' + fingerlings.....................    8/25
Tiger Muskie...................................          50,000  2'' + fingerlings.....................    7/15
Northern pike..................................         150,000  Fry...................................    4/30
Chinook salmon.................................         500,000  3'' + fingerlings.....................    4/15
Largemouth bass................................          70,000  2'' + fingerlings.....................    9/15
Largemouth bass................................          10,000  6'' + fingerlings.....................   10/30
Smallmouth bass................................          25,000  5'' + fingerlings.....................   10/30
Channel Catfish*...............................          40,000  8'' + fingerlings.....................   10/30
----------------------------------------------------------------------------------------------------------------
* Considered for inclusion on available basis and State programmatic needs.

            Chapter 3: Site Planning and Existing Conditions
3.1 Water Supply
    Operation of the fish hatchery will entail the use of large volumes 
of water; however, actual water consumption will be low since the 
hatchery is designed to operate in a flow-through mode. During several 
months of operation, a net surplus of water will be discharged to the 
river because of the use of groundwater in hatchery operations. The 
only water consumed as a result of hatchery operation can be attributed 
to evaporation from the rearing ponds. The primary water source for 
hatchery operations will be derived from the surface water adjacent to 
the project site. An alternate water supply from groundwater extraction 
wells will also be incorporated into the facility design. The process 
water for the Fort Peck Fish Hatchery will be supplied through four 
1,500-gallon-per-minute (gpm) capacity wells located on the northern 
edge of the project site and also through a 5,000 8pm pumping system 
located in the dredge cut area.
3.2 Surface Water Quality
    Data from water samples collected downstream from the powerhouse at 
Fort Peck Dam are representative of the water quality to be used in the 
hatchery. The results of analytical testing indicate that the surface 
water source has no deleterious materials that would adversely impact 
the operation of the fish hatchery and that the source, overall, is of 
superior quality.
3.3 Groundwater Quality
    Following completion of a well-capacity test, water samples must be 
taken and analyzed to determine the quality of the groundwater adjacent 
to the proposed hatchery area. It is hoped that the groundwater within 
the saturated alluvium will be available in sufficient quantity and be 
of adequate quality to serve as an additional source to support 
hatchery operations.
                      Chapter 4: Conceptual Design
4.1 Introduction
    Plates 2 and 3 provide a conceptual site layout of the proposed 
hatchery development. The hatchery buildings, raceways, and 
outbuildings are located along the easternmost portion of the site, 
adjacent to State Highway 117. The ponds occupy the gently sloping land 
to the west of the hatchery structure. The site is bounded to the south 
by a gravel road and to the north by the Missouri River dredge cut 
area. Private property is located to the west and north of the site. 
Access to the site will be via State Highway 117 and the gravel road, 
both of which lie juxtapositional to the site boundary.
4.2 Ponds
            4.2.1 Orientation and Layout
    The Fort Peck Fish Hatchery will include 49 acres of ponds, the 
majority of which will be 1 surface acre in size. Three standard sizes 
of ponds will be included at the facility: two 2-acre cells, 38 1-acre 
cells, and 14 0.5-acre cells. Plate 2 shows the proposed configuration 
of the 54 rearing ponds.
            4.2.2 Kettle Type and Location
    All ponds will be outfitted with external catch basins (kettles) 
for fish harvesting. It is anticipated that one kettle will service no 
more than six ponds. This configuration will require a total of 10 
kettles to adequately drain the ponds for fish harvesting activities. 
The chimney-type drainage structure on the ponds will consist of a 
concrete structure and slide gate located in the lowest portion of the 
pond floor. A ramp will provide access to the pond outlet control 
structure for controlling pond operations during harvest.
4.3 Raceways
    Eight paired concrete raceways will be provided for use in the 
intensive culturing of salmonidspecies, although walleye, tiger muskie, 
northern pike, and channel catfish have been successfully reared within 
this environment. Raceways will also be used, as needed, for the 
overwintering of largemouth and smallmouth bass brood stock. The 
projected dimensions for the raceways are 60 feet long by 6 feet wide, 
with a maximum water depth of 3 feet.
4.4 Hatchery Building
    The hatchery building is shown on Plates 4 and 5. The hatchery will 
be constructed using a cast-in-place concrete slab with masonry (CMU 
and brick) walls and a truss-supported roof. The building floor plan is 
shown on Plate 4. The total building area is projected to be 21,949 
square feet and will consist of several different operating areas. Both 
the administrative and wet laboratory areas will be heated. The 
hatchery building will conform with the American Disabilities Act (ADA) 
and National Fire Protection Agency (NFPA) Life Safety requirements.
    Public viewing indoors will be possible at a window separating the 
wet laboratory from the lobby and visitors' area, while outdoor 
activities can be observed through a window overlooking the pond and 
raceway complex. The hatchery area will include four offices, sleeping 
areas, a general crew conference area, a break room with kitchen/dining 
facilities, and public restrooms.

                                Table 4.1
                    Area Layout for Hatchery Building
                         Fort Peck Fish Hatchery
------------------------------------------------------------------------
                            Area
------------------------------------------------------------  Net Square
                                                               Footage
------------------------------------------------------------------------
WET LABORATORY AREA:
    Garage and Storage area......  Mechanical Room.........       17,584
    Chemical and Equipment Room..  Pathology Room..........
    Feed Laboratory Room.........  Isolation Room..........

ADMINISTRATION AND VISITOR AREA:
    Mud Room.....................  Conference Room.........        1,855
    Waiting and Observation Room.  Office Nos. 1, 2, 3.....
    Public restrooms.............  Storage area............

CREW AREA:
    Office/Female Sleeping Room..  Toilet..................        2,026
    3 Crew Sleeping Rooms........  Break Room..............
    Crew Shower Room.............  Kitchen.................
    Janitor Closet...............

MECHANICAL AND ELECTRICAL ROOMS..                                    484
------------------------------------------------------------------------

                       Chapter 5: Facility Costs
5.1 Project Cost Summary
    A summary of major construction category costs and an estimate of 
total project costs are shown in Table 5.1. A supplemental paragraph 
was added to this chapter to document the costs associated with the 
construction of similarly sized hatchery complexes located within the 
Midwest. Although the examples noted in the discussion are not exact 
duplicates of the proposed Fort Peck Fish Hatchery, they are similar in 
nature and serve to provide a ``proof-of-concept'' for the cost figures 
that were developed in this report.

                                Table 5.1
                        Construction Cost Summary
                         Fort Peck Fish Hatchery
------------------------------------------------------------------------
                   Item Description                           Cost
------------------------------------------------------------------------
Fish Hatchery Building...............................         $3,691,888
Hatchery Building Equipment..........................          1,444,300
Hatchery Building Drive and Apron....................            175,334
Rearing Ponds........................................          7,304,348
Raceways and Canopy..................................            683,235
Site Work and Roads..................................            209,791
Water Supply (Wells, Lake Intake, and Piping)........          1,364,883
Site Electrical......................................            358,169
Support Facilities...................................            405,000
Miscellaneous........................................            604,570
------------------------------------------------------------------------
    Total Year 2000 Construction.....................        $16,241,448
------------------------------------------------------------------------
Planning, Engineering and Design.....................          1,507,567
Construction Management..............................          1,005,046
========================================================================
    Total 2000 Project Cost..........................        $18,754,061
------------------------------------------------------------------------

5.2 Annual Operation and Maintenance Costs
    The annual operation and maintenance costs are based on those 
expenses attributable to electrical consumption, natural gas usage, 
feed, laboratory supplies, facility labor, and ancillary support 
equipment. Table 5.2 contains a brief summary of estimated annual 
operating expenses for the Fort Peck Fish Hatchery. Feed costs are 
dependent on the specific production program followed. The cost of feed 
was based on a per-pound cost of $0.38 for salmonid feed and $100 per 
ton for pelletized alfalfa. Labor costs include wages and the standard 
breakdown for benefits and taxes. Four full-time positions were assumed 
for operation of the hatchery.

                                Table 5.2
                 Annual Operation and Maintenance Costs
                         Fort Peck Fish Hatchery
------------------------------------------------------------------------
                        Category                               Cost
------------------------------------------------------------------------
Personnel Salaries......................................        $125,000
Hourly Wages............................................          35,000
Consulting Services.....................................           5,000
Lab Equipment, Supplies, and Administrative Materials...          15,000
Egg, Fry, and Fingerling Procurement....................          15,000
Hatchery Equipment / Motor Vehicles.....................          10,000
Travel / Per Diem.......................................           2,500
Building and Grounds Maintenance........................          20,000
Natural Gas.............................................          70,250
Electrical Service......................................          31,250
------------------------------------------------------------------------
    Total...............................................        $328,950
------------------------------------------------------------------------

5.3 Comparable Hatchery Cost Information
    This section was provided to document the costs associated with the 
construction of comparably sized hatchery complexes located within the 
Midwest. The two examples cited within this section are located in 
North Dakota and Missouri.
    The Garrison National Fish Hatchery is located in North Dakota 
adjacent to Lake Sakakawea. Rob Holm (701-654-7451) provided 
information relative to the construction history and costs associated 
with facility renovations over the years. Mr. Holm indicated that the 
facility was constructed in 1962-1963, with a significant upgrade added 
in 19841985. The facility is capable of producing cold-, cool-, and 
warm-water fish species and also has raceways in addition to rearing 
ponds for facility flexibility. Approximately 64 ponds and 12 60-foot 
by 6-foot raceways and an unknown number of 80-foot by 8-foot raceways 
are present at the site. The facility was appraised to determine its 
total replacement value, and the cost of facility replacement was found 
to be $22 million. This value exceeds the total project cost estimated 
for the Fort Peck Fish Hatchery by $2.2 million, although it should be 
noted that the hatchery facilities are not identical in nature.
    The Lost Valley Fish Hatchery located in Warsaw, Missouri, adjacent 
to Truman Lake provides the most recent example of a newly constructed 
hatchery similar to the hatchery proposed for the Fort Peck site. Steve 
Eder of the Missouri Department of Conservation indicated that 
construction of this hatchery was completed in March 2000 and consists 
of a 29,000-square-foot hatchery complex, an administration area, and a 
visitors center, along with 68 acres of lined ponds (78 total) and 7 
water supply wells. The construction cost for this facility exceeded 
$18.9 million. Applying the standard 9 percent value for Engineering 
and Design, in conjunction with 6 percent for Construction Oversite and 
Administration during the construction phase, leads to a total facility 
cost of $21.8 million. This facility, while larger than the proposed 
Fort Peck facility, is similar in complexity and overall production 
capabilities. The project costs are supportive of the cost projections 
developed in this study.
    The preceding paragraphs were provided to support the estimated 
project costs developed for this document. It is felt that the 
engineering, design, and construction costs of the project outlined in 
this predesign document fall within the range expected for a facility 
of this magnitude. Until predesign and design activities are 
undertaken, which will allow for further fine-tuning of these project 
costs, the $19.8 million cost proposed for the Fort Peck Fish Hatchery 
is felt to accurately reflect the costs associated with the 
construction of a state-of-the-art fish hatchery. Construction of this 
fish hatchery will provide a complex capable of meeting the fishery 
needs of the State of Montana well into the future.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
Statement of Patrick J. Graham, Director of Montana Fish, Wildlife and 
                                 Parks
    Mr. Chairman, Members of the Committee. My name is Pat Graham, 
Director of the Montana Department of Fish, Wildlife & Parks, the 
agency in the great state of Montana which has responsibility for the 
management of our fish and wildlife resources and many recreational 
opportunities. I am here today to testify in support of the multi-
species fish hatchery proposed to be built below Fort Peck Dam in 
Senate Bill 2027. In 2001 Montana Fish, Wildlife & Parks will observe 
our 100th Anniversary. We will celebrate a century of successful 
conservation efforts during which we helped restore fish and wildlife 
populations from the historic lows at the turn of the century to the 
general abundance we have today.
    The challenges for the next century may prove to be just as 
daunting. The demand for opportunities to fish, hunt and otherwise 
interact with wildlife are growing as are the costs of conserving 
habitat, providing access and addressing the needs of federally listed 
species. Our financial resources are stretched to the limit.
    The growing demand for warmwater fishing on Fort Peck Reservoir 
combined with addressing the needs of listed species and species of 
concern, like pallid sturgeon and sauger, are indicative of the issues 
we face. Fort Peck Reservoir, the state's largest water body, provides 
important warmwater fisheries for walleye, sauger, northern pike, and 
smallmouth bass, as well as for chinook salmon and lake trout. Fort 
Peck is also home to prehistoric paddlefish. While this species of 
special concern is abundant in Fort Peck and the Yellowstone River, its 
very limited distribution in the remainder of its historic range once 
prompted an ESA listing petition.
    The angling use on Fort Peck is increasing steadily. Prior to 
becoming Director of this agency, I was the Chief of the Fisheries 
Division. In 1985, I completed the first warmwater fisheries management 
plan for Montana. Since completion of that plan, the fishing use on 
Fort Peck Reservoir has tripled (Attachment 1). You can see by the 
testimony before you today and the interest in this project that 
angling is an important component of this area's economic base.
    Fort Peck Reservoir has never been an easy reservoir to manage for 
fisheries. Water level fluctuations, particularly during drought years, 
coupled with the need to provide navigation water downstream, has made 
managing the reservoir for spawning and rearing very difficult. The 
primary substrate in Fort Peck, bearpaw shale, is unsuitable for 
walleye spawning. To provide a sport fishery we must annually stock 
large numbers of walleye into the reservoir (Attachment 2).
    Montana has long carried the financial burden of managing this 
fishery, stocking a variety of species into Fort Peck Reservoir since 
1942 (Attachment 3). In the early years, the state lacked the 
capability to produce large enough numbers of warmwater species to 
support or sustain a viable sport fishery. In 1983, the state acquired 
the Federal Miles City Warmwater Fish Hatchery from the U. S. Fish and 
Wildlife Service. The facility was falling apart, however, it provided 
the opportunity to establish one cornerstone of our warmwater fish 
program. In 1985, the Department began renovation of the Miles City 
Hatchery and over a period of 14 years we invested more than 6.5 
million dollars to renovate that facility and bring it to full capacity 
(Attachment 4). Today, 75 percent of the production of the Miles City 
Hatchery goes to stock a single reservoir--Fort Peck Reservoir. While 
Fort Peck could utilize even more walleye, the rest of the state does 
not have its needs met. Nor is there the capacity to meet future 
warmwater fishing needs. Fort Peck will require additional fish to 
enhance the walleye, sauger, and chinook fisheries.
    The sauger, a native cousin to the walleye living primarily in free 
flowing rivers, has shown significant declines in the Missouri as well 
as in the Yellowstone river systems. It is a species of special 
concern. and aggressive management efforts are needed to keep the 
sauger off of the endangered species list. We are looking at enhancing 
sauger populations in a variety of ways including increased hatchery 
capacity for sauger to supplement natural populations. We currently 
have no capacity at our Miles City Hatchery to raise sauger.
    The pallid sturgeon, a federally endangered species, is found in 
the Missouri River above and below Fort Peck. They are in a precarious 
situation resulting from unsuccessful reproduction for the last 55 
years. The construction of the Missouri River dams and resulting 
reservoirs, including Fort Peck, are believed to be directly 
responsible for the plight of the pallid sturgeon. This hatchery would 
also give us the capability to raise pallid sturgeon to supplement the 
existing population and prevent extinction. The Miles City Hatchery is 
not equipped to propagate pallid sturgeon.
    When the Montana Legislature last met in 1999, they were made aware 
of the need to construct a multi-species hatchery at Fort Peck. HB 20 
was passed, authorizing the construction of the Fort Peck Hatchery and 
established a warrnwater fisheries stamp to assist in funding this 
project (Attachment 5). During the debates recognition of the need for 
an additional hatchery was tempered with a strong feeling that the 
hatchery was a Federal responsibility.
    Montana concluded it was a Federal responsibility in part due to 
unfilled promises related to Pick--Sloane legislation. The Fort Peck 
project was integrated into Pick-Sloane Federal legislation with other 
Federal water projects (Clark Canyon, Canyon Ferry, Yellowtail, and 
Tiber dams) in Montana. Pick-Sloane was to provide Montana with low 
cost power, irrigation, recreation, and fish and wildlife enhancement, 
all intended to provide economic development to offset impacts from 
these Federal water projects. To date there have been few projects 
developed under the obligations identified in Pick-Sloane. Montana has 
seen the development of irrigation systems equivalent to only 5.75 
percent of that obligation and only 6.5 percent of the power allocated 
for pump irrigation (Toston, Lower Yellowstone, Savage, and Intake). 
Agricultural land development (800,000 acres) and the economic benefit 
for Montana that should have occurred with those irrigation projects 
identified under Pick-Sloane have never been realized. The little 
development that occurred (46,000 acres) was centered around Canyon 
Ferry Reservoir, Clark Canyon Reservoir, and along the lower 
Yellowstone. Therefore, Federal obligations under Pick-Sloane have 
never been fulfilled in Northeastern Montana or anywhere else in 
Montana.
    The use of water for and the recreational benefit derived from fish 
produced in a Fort Peck Hatchery would meet the criteria identified in 
Pick-Sloane. A hatchery at Fort Peck would result in economic 
development in eastern Montana based on increased recreational 
opportunity and enhanced fisheries in Fort Peck Reservoir.
    Both the Pick-Sloane and the ``Federal Project Recreation Act'' 
provide the rationale for the State of Montana to request Federal 
funding for the design, construction, operations and maintenance of a 
multi-species hatchery at Fort Peck (Attachment 6).
    Montana also believes that we have contributed fairly to 
recreational fish and wildlife management and development that have 
benefited Fort Peck over the past 53 years. Senate Bill 2027 recognizes 
this contribution by allowing Montana to use as its match for 
construction of the hatchery costs the state has borne for managing the 
fishery of Fort Peck Reservoir since 1947. We have only been able to 
accurately track costs back to 1983. However, since that time Montana 
has spent over $11 million dollars in managing the fishery of Fort 
Peck. These costs include propagation and stocking of walleye, bass, 
northern pike, and chinook salmon as well as other projects related to 
fisheries and recreational access to the reservoir (Attachment 7).
    The other issue is who pays how much for the ongoing operation of 
the hatchery. The annual costs for the state to rear and stock fish in 
Fort Peck include those associated with: collecting eggs from walleye, 
sauger, chinook and pallid sturgeon and transporting them to the 
hatchery; operational costs for the hatchery itself including 
personnel, utilities, fish food, maintenance; and cost to distribute 
the fish to the reservoir. When the Fort Peck Hatchery is completed 
both Miles City and Fort Peck will be used to stock Fort Peck 
Reservoir. We estimate that the annual costs to rear and stock fish in 
Fort Peck once the Fort Peck Hatchery is completed will be $750,000. 
(Attachment 8). This includes the costs for the egg collection, the 
operational costs of Fort Peck and 75 percent of Miles City, and the 
cost to stock the fish.
    Montana will pay for the collection and transportation of the eggs, 
all the operational costs associated at the former Federal hatchery at 
Miles City, and the costs for fish distribution which amounts to 
$395,000 annually. In addition, revenues from the warmwater fish stamp 
are estimated to produce $100,000 to $125,000 annually for the Fort 
Peck Hatchery. The legislature limited by statute Montana's 
contribution for the Fort Peck Hatchery to the dollars generated from 
the stamp. Collectively, expenditures by the state equate to two-thirds 
of the cost to stock and rear fish for Fort Peck. We believe this is a 
fair contribution, and that the Federal portion or one-third of the 
cost would go to fund day-to-day maintenance and operational expenses 
for the Fort Peck Hatchery. In addition, the state is spending over a 
quarter million dollars per year on work related to the endangered 
pallid sturgeon, sauger restoration, and other related fish management 
programs.
    In closing I would like to reiterate Montana Fish, Wildlife & Parks 
support for the Fort Peck Hatchery. We appreciate the hard work by 
Senator Burns and his staff and others in the delegation. We have made 
significant financial commitments to develop a reservoir fishery over 
the last half century. We will continue to bear a significant part of 
the load, and we applaud Congress and the Corps of Engineers for 
stepping forward to pick up the Federal obligation. The people of 
eastern Montana and our many out-of-state guests will surely benefit 
from this legislation well into the next century.
                                 ______
                                 

                              Attachment 1.
    Angling use estimates at Fort Peck Reservoir between 1984 and 199
------------------------------------------------------------------------
                                                       Non-
                                          Resident   Resident    Total
                  Year                     Angler     Angler     Angler
                                            Days       Days       Days
------------------------------------------------------------------------
1984...................................     23,056        170     23,226
1985...................................     35,885      1,526     37,411
1989...................................     33,734      4,058     37,792
1991...................................     39,552      3,793     43,455
1993...................................     35,580      6,419     41,999
1995...................................     56,617      7,429     64,046
1997...................................     92,147     16,415    108,562
------------------------------------------------------------------------

                                 ______
                                 

                                                  Attachment 2
     ACTUAL WALLEYE PRODUCTION FOR MILES CIN HATCHERY 1983-2000 PERCENT OF PRODUCTION TO FORT PECK RESERVOIR
----------------------------------------------------------------------------------------------------------------
                                                                 Total Production
                                                                    Miles City      Total Production  Percentage
                        Production Year                            Hatchery Fish     Fort Peck Fish     to Fort
                                                                      Numbers            Numbers         Peck
----------------------------------------------------------------------------------------------------------------
1983..........................................................        2,758,470.00      2,743,470.00       99.46
1984..........................................................       19,658,268.00      6,048,132.00       81.64
1985..........................................................       13,324,192.00     11,574,007.00       86.86
1986..........................................................       12,420,974.00      5,200,000.00       41.86
1987..........................................................          671,208.00              0.00        0.00
1988..........................................................       32,864,995.00     26,114,995.00       79.46
1989..........................................................       41,908,702.00     32,969,116.00       78.67
1990..........................................................       16,695,174.00      8,437,957.00       50.54
1991..........................................................       15,477,669.00     10,004,795.00       64.64
1992..........................................................       27,667,916.00     18,572,539.00       67.13
1993..........................................................       33,135,282.00     26,479,010.00       79.91
1994..........................................................       35,138,544.00     28,697,334.00       81.67
1995..........................................................       29,792,318.00     24,041,344.00       80.70
1996..........................................................       36,642,822.00     25,115,795.00       68.54
1997..........................................................       59,686,170.00     53,463,154.00       89.57
1998..........................................................       36,075,067.00     29,433,538.00       81.59
1999..........................................................       50,816,783.00     44,599,883.00       87.77
2000..........................................................       50,000,000.00     42,500,000.00       85.00
    TOTAL.....................................................      514,734,554.00    405,995,069.00       78.87
----------------------------------------------------------------------------------------------------------------

                              attachment 3
       fort peck reservoir stocking records montana fwp 1940-1999
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

                              ATTACHMENT 4
    9MONTANA FWP COST TO RENOVATE MILES CITY HATCHERY TO MEET GROWING
                        STOCKING NEEDS 1985-1999
------------------------------------------------------------------------
   Miles City Hatchery Capital Recap                        Budget
------------------------------------------------------------------------
1999 Legislative Session
    7993104 Statewide Mtce/Hatchery          02409           $ 38,105.00
     Valves............................
    7993102 Miles City House Foundation      02409              8,478.30
1997 Legislative Session
    7970932 Miles City Hatchery Repairs      02409             815,00.00
1993 Legislative Session
    7950800 Miles City Hatchery Pond...      02409            110,000.00
1991 Legislative Session
    7940901 Emergency Hatchery Mtce/         02409             16,159.00
     Miles City........................
    93-35-06 Fence Replace/Miles City        02409             18,373.00
     Hatchery..........................
    Fence Replace/Miles City Hatchery..      02409             55,120.00
1989 Legislative Session
    89-35-14 Miles City Emergency            05013             62,500.00
     Repair............................
1985 Legislative Session
    85-35-17 Miles City Hatchery.......      02409             81,750.00
    Miles City Hatchery................      03097            245,250.00
    Miles City Hatchery Expansion......      05013          4,948,421.00
                                                     -------------------
        Total..........................                   $ 6,586,156.30
------------------------------------------------------------------------

                                 ______
                                 
                              Attachment 5
                  hb 20 1999 montana state legislature
 authorization for multi-species hatchery and establishment of a warm 
                         water game fish stamp
                        1999 montana legislature
                           house bill no. 20
  Introduced by S. Kitzenberg, A. Bishop, J. Bohlinger, D. Fuchs, K. 
  Gillan, L. Grosfield, T. Hagener, J. Harp, D. Hedges, J. Hertel, R. 
 Holden, T. Keating, R. Lenhart, M. Lindeen, J. Lynch, G. Matthews, M. 
 McCann, W. McNutt, A. Mohl, L. Nelson, R. Peck, B. Rehbein, F. Smith, 
                    M. Sprague, J. Tester, D. Toews
 an act establishing a multispecies fish hatchery near fort peck dam; 
 creating the warm water game fish surcharge and warm water game fish 
stamp that will allow a licensee to fish in designated waters for warm 
 water game fish; dedicating surcharge revenue; creating accounts and 
providing for administration of the accounts by the department of fish, 
wildlife, and parks; prohibiting the department of fish, wildlife, and 
 parks from using for the hatchery more money than is in the accounts 
   established for the hatchery; and providing a contingent voidness 
                               provision
Be it enacted by the Legislature of the State of Montana:

    Section 1. Fort Peck multispecies fish hatchery established. (1) 
There is a multispecies fish hatchery near Fort Peck dam. The purpose 
of the hatchery is to provide healthy warm water game fish to improve 
the warm water fishing opportunities in Montana with minimal impact on 
cold water fish populations. Administration of the hatchery must be by 
the department, consistent with the department's authority provided for 
in 87-3-201.
    (2) The multispecies hatchery is intended to use 96 acres of 
rearing ponds to produce warm water species. The hatchery is to employ 
land available through long-term lease from the U.S. army corps of 
engineers. It is intended that the hatchery use free, high-quality 
water from the dredge cut adjacent to Fort Peck dam. Electric power for 
the hatchery may be purchased from Fort Peck dam at the lowest 
available rate.
    (3) Warm water species to be propagated at the hatchery may include 
largemouth bass (Micropterus salmoides), smallmouth bass (Micropterus 
dolomieui), walleye (Stizostedion vitreum), sauger (Stizostedion 
canadense), black crappie (Pomoxis nigromaculatus), white crappie 
(Pomoxis annularis), channel catfish (Ictalurus punctatus), yellow 
perch (Perca flavescens), northern pike (Esox lucius), tiger 
muskellunge, and bait fish, including cisco (Coregonus artedii). The 
hatchery may also include raceways for salmon.
    (4) Costs for hatchery construction, operation, maintenance, and 
personnel are to be funded with revenue in the warm water game fish 
accounts established in [section 2]. It is intended that the hatchery 
be constructed in stages as revenue becomes available in the warm water 
game fish accounts established in [section 2].
    Section 2. Warm water game fish surcharge and stamp--warm water 
game fish defined -accounts established--dedication of revenue to Fort 
Peck multispecies fish hatchery. (1) A person who is required to be 
licensed in order to fish in Montana and who desires to fish for warm 
water game fish in waters listed pursuant to subsection (9) shall, upon 
purchase of a Class A, Class B. Class B-4, or Class A-8 fishing 
license, pay a warm water game fish surcharge of $5. The surcharge is 
in addition to the license fee established for each class of license 
and entitles the holder to fish for warm water game fish as authorized 
by the department. Payment of the surcharge must be indicated by 
placement of a warm water game fish stamp on the fishing license.
    (2) A warm water game fish stamp is valid for the license year in 
which it is purchased.
    (3) Revenue from the warm water game fish surcharge must be placed 
in the account created in subsection (5) and may be used only for the 
purposes set out in subsection (7).
    (4) As used in this section, ``warm water game fish'' includes but 
is not limited to all species of the genera Stizostedion, Esox, 
Micropterus, and Lota and includes largemouth bass (Micropterus 
salmoides), smallmouth bass (Micropterus dolomieui), walleye 
(Stizostedion vitreum), sauger (Stizostedion canadense), black crappie 
(Pomoxis nigromaculatus), white crappie (Pomoxis annularis), channel 
catfish (Ictalurus punctatus), yellow perch (Perca flavescens), 
northern pike (Esox lucius), and tiger muskellunge.
    (5) There is an account into which must be deposited:
    (a) all proceeds from the warm water game fish surcharge 
established in subsection (1); and
    (b) money received by the department in the form of gifts, grants, 
reimbursements, or appropriations from any source intended to be used 
for the Fort Peck multispecies fish hatchery.
    (6) The department shall administer the account within the state 
special revenue fund established in 17-2-102.
    (7) Subject to the provisions of subsection (8), revenue collected 
under subsection (5) must be used by the department for the 
construction, operation, maintenance, and personnel costs of the Fort 
Peck multispecies fish hatchery established in [section 1], which may 
include a cost-share agreement with the Federal Government for 
construction of the Fort Peck multispecies fish hatchery, and beginning 
October 1, 2005, for the costs incurred in eradicating illegally 
introduced warm water species from Montana waters. No more than 15 
percent of available revenue may be dedicated to eradication efforts.
    (8) The department may not use any non-Federal funds for the 
hatchery authorized in [section 1] other than those in the account 
provided for in subsection (5). There is an account in the Federal 
special revenue fund into which must be deposited all Federal money 
received for purposes of the Fort Peck multispecies fish hatchery and 
from which the department may use funds for the hatchery authorized in 
[section 1].
    (9) The department shall prepare a list of all waters into which 
fish from the Fort Peck multispecies fish hatchery will be planted. The 
waters designated in the list are the only waters for which a warm 
water game fish stamp is required.
    Section 3. Contingent voidness. If Federal funds are not committed 
for the purposes of [this act] by June 30, 2001, then [this act] is 
void.
    Section 4. Codification instruction. [Sections 1 and 2] are 
intended to be codified as an integral part of Title 87, chapter 3, 
part 2, apply to [sections 1 and 2].
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
 Statement of Bud Clinch, Montana Department of Natural Resources and 
                              Conservation
    On behalf of the Missouri River Basin Association, I am providing 
you with this testimony in support of a Congressional authorization for 
the warm water fish hatchery at Fort Peck Reservoir in northeastern 
Montana (S. 2027).
    The Missouri River Basin Association (MRBA) is a coalition of the 
Missouri River basin's states and Indian tribes. The organization has a 
nine-member board comprised of one representative of the basin's Indian 
tribes and one Governor-appointed representative from each of eight 
Missouri basin states (Iowa, Kansas, Missouri, Montana, Nebraska, North 
Dakota, South Dakota, and Wyoming). I serve as the Director of the 
Montana Department of Natural Resources and Conservation, and as 
Montana's representative to MRBA. The association coordinates planning 
activities for the Missouri River among the basin's states, Federal 
agencies, and Indian tribes.
    Five years ago, the Corps of Engineers asked MRBA to develop 
recommendations on a river operating plan that would be acceptable to 
the basin's states and tribes. MRBA spent several years working with 
marina operators, farmers, navigators, and representatives of water 
supply interests to develop recommendations to improve the overall 
economic and environmental conditions of the Missouri River basin. Two 
years ago, MRBA completed this task with the publication of its 
``Missouri River Planning Recommendations'' document. A fish hatchery 
to be built at Fort Peck was one such recommendation. Constituents 
throughout the basin support the recommendations included in that 
document. During the past 2 years, MRBA has worked with water users and 
interests to address the more difficult issues of drought flow 
management and recovery of the basin's threatened and endangered bird 
and fish species.
    The entire basin supports the fish hatchery at Fort Peck Reservoir 
for a variety of reasons:
    <bullet>  MRBA and its constituents support the development of 
recreational resources throughout the basin. The fish hatchery would 
help turn Fort Peck Reservoir into a world class fishery.
    <bullet>  The fish hatchery would be good for the economy of the 
state and region. Improvements to the Fort Peck fishery will help draw 
fishermen and recreationists from around the country.
    <bullet>  The fish hatchery would provide mitigation for the on-
going impacts to the Fort Peck fishery from the river system operations 
and water releases for downstream uses.
    <bullet>  The warm water fishery can produce pallid sturgeon, a 
federally listed species. The sturgeon fry can be used to stock the 
waters of the Yellowstone River and the Missouri River below Fort Peck, 
its traditional habitat.
    In summary, the fish hatchery at Fort Peck Reservoir makes good 
economic and environmental sense. Fort Peck Reservoir has incredible 
fisheries potential for multiple species if appropriate stocking rates 
can be implemented. Now is the time to invest in such projects because 
the upcoming commemorations of the Lewis and Clark journey up the 
Missouri River will bring tens of thousands of people to this region. 
This fish hatchery can enhance the reservoir attraction, restore an 
endangered species, and provide for economic growth. For all these 
reasons I urge your support of S. 2027.
                               __________
 Statement of Chuck Lawson, Chairman, Citizens for a Fort Peck Hatchery
    Lawson and I represent thousands of people, both resident and non-
resident, of a grass-roots group called Citizens for a Fort Peck Fish 
Hatchery. This grass roots group was formed by talking to and listening 
to anglers from all across the state of Montana. The more people we 
visited with, the more it became apparent that, in order to protect our 
existing warm-water fishery, to improve our angling, and to have ample 
angling opportunities for our children, we needed to look to the future 
and plan for it now. In addition, providing a good fishery is vital to 
our sagging Eastern Montana economy.
    With these ideas in mind, we decided to go out and talk to other 
communities about them. We had meetings in Billings, Great Falls, Wolf 
Point, Miles City, Glendive, Sidney, Glasgow, Plentywood, and 
Lewistown. We advertised the meetings on the radio stations and the 
newspapers in the communities prior to each meeting. There were many 
ideas discussed and much debate, but two things became crystal clear 
after all of these meetings were completed. First, the warm-water 
anglers of Montana wanted to protect and enhance their fisheries for 
today and they wanted to preserve angling opportunities for their 
children for tomorrow. Second, they had absolutely no qualms about 
paying for this project with a self-imposed $5.00 warm-water fishing 
stamp.
    The hatchery has created a huge amount of interest and, for the 
first time in years, you can actually see communities and citizens 
pulling together for a common cause. Let me explain something about 
warm-water anglers and how they operate. First, these anglers are very 
mobile. Most of them own fishing boats and trailers and can move from 
one body of water to another at the drop of a hat. If the fishing in 
lakes in Montana is poor, these people just back their pickups up to 
their boats and away they go to a different state or province where the 
fishing is good. So, if the fishing is poor, first you lose your 
resident anglers spending their dollars in our local economies and 
second, you don't attract non-resident anglers to spend their dollars 
in your communities. Now, if fishing is good on our lakes and rivers, 
we keep resident anglers at home and they spend their dollars locally. 
If the fishing is very good, you also attract out-of-state anglers who 
spend their dollars in our communities. If we develop an exceptional 
fishery, we can attract large, national media events like The In-
Fisherman program or the Professional Walleye Tour that bring our lakes 
into millions of people's living rooms through television. These things 
are actually happening at Fort Peck Lake right now, but, if we don't 
take action to protect and enhance our fisheries, these things will 
disappear.
    So, with these ideas we went to the 1998-99 legislative session in 
Helena, Montana. We worked hard as a grass-roots group and, along with 
Walleyes Unlimited of Montana and the Montana Bass Federation, we were 
able to get the new warm-water stamp and the new Fort Peck Fish 
Hatchery designated and signed into law by Governor Racicot. We did not 
come out of the legislature, however, without an amendment that stated 
if we didn't get some Federal funding by June 30 of 2001, then the 
hatchery project would be dead.
    In September 1999, we had a meeting with all interested parties and 
tried to come up with a way to get a conceptual design and cost study 
done. We asked the Corps of Engineers how much it would cost if they 
did the study. They told us that the cost would be approximately 
$250,000. Senator Burns had been lobbying to get this fully funded, but 
wasn't successful. Instead, he was instrumental in getting a 50/50 cost 
share from the Corps budget from planning assistance to states. The 
Department of Fish, Wildlife, and Parks didn't have any funds to pay 
the other $125,000, nor did the State. So that left the private sector 
and the Citizens for a Fort Peck Hatchery to come up with the other 50 
percent for the cost share.
    We knew that the warm-water stamp would generate moneys to pay this 
50 percent cost share, but it wouldn't go on sale until March 1 of 
2000. So how could we come up with $125,000 by December, 1999? Well, 
where there is a will, there is a way. First we contacted the Montana 
Department of FWP and asked them if they would release the moneys from 
the warm-water stamp to repay a loan if we could secure a loan for 
$125,000. At first the Dept. told us they didn't know how much the 
stamp would raise annually, but they seemed to think it would be at 
least $125,000.
    Next, by law, the only thing that the stamp money can be used for 
is construction, operation, and maintenance of the new hatchery. So, 
they had to determine if a conceptual design and cost estimate were 
indeed part of construction. The Dept. of FWP attorneys agreed that 
design was part of construction and, therefore, if we could secure a 
loan, then they would release whatever stamp moneys were available to 
repay the loan.
    We then approached First Community Bank in Glasgow and asked if 
their lending institution would be willing to make a loan of $125,000 
using the warm-water stamp for collateral. At the same time, we talked 
with Nemont Telephone Cooperative of Scobey, MT, and asked them if they 
also might be interested in helping with a loan. After about a week or 
so, Mr. Sam Waters, President of First Community Bank, had us meet with 
three other banking officers from Glasgow. We explained our plan to 
borrow the $125,000 and have the stamp funds repay the loan when the 
moneys became available. After another week, Mr. Waters called and 
stated that they had 14 banks, two credit unions, and Nemont Telephone 
Cooperative that would loan the $125,000 so the study could begin.
    By this time--it is December, 1999, and we have to have the 
conceptual design done and a firm cost estimate to give to our Federal 
legislators by at least March of 2000. As of March 30, 2000, the Corps 
of Engineers, Omaha District, finished the conceptual design. The Corps 
of Engineers, Omaha District, did a superb job of doing the study and 
got it to us in an extremely short timeframe.
    The study has now been given to the Montana Congressional 
delegation. We believe that the Federal Government has an obligation to 
help with this funding. The government came to Montana in the 1930's 
and built Fort Peck Dam. Montana and its citizens were promised low-
cost power and irrigation from Fort Peck project. Later Fort Peck 
finally received a recreation status, as well. To this day, neither 
Montana nor its citizens, past or present, have realized any low-cost 
power or irrigation from Fort Peck. Montana, meanwhile, has spend many 
millions of dollars to improve recreational opportunities around Fort 
Peck Lake. When the dam was built, the water behind the dam flooded 
some of the most productive agricultural land in five eastern Montana 
counties. That land is out of production forever. Montana and the 
counties around Fort Peck Lake have built and maintained the roads 
around Fort Peck Lake for decades with little or no Federal help.
    We also feel that the Missouri River dams have stopped the 
migration routes of some fish species, especially the Pallid Sturgeon. 
This fish is now listed on the threatened and endangered species list. 
We also know that sauger is another fish native to the Missouri that 
has dwindling numbers and is a species of special concern to the 
Montana Dept. of FWP.
    As we look ahead into the new millennium, we realize that small 
agricultural-based communities will have to diversify in order to 
remain solvent. We, in our communities, are already seeing stores 
closing their doors forever. Some stores, such as J.C. Penney stores, 
have been a landmark in the communities of Glasgow and Miles City for 
generations. These stores will be missed on county tax rolls and by the 
people they served. We realize that Federal money spent in Montana to 
construct a fish hatchery will benefit many generations of citizens, 
both resident and non-resident. We know that people come to Montana to 
recreate more and more every year. These people come from all over the 
United States and we feel that this fish hatchery will help us to be 
able to provide exciting recreational experiences for residents and 
non-residents for many years to come.
    A common misconception about the Fort Peck Fish Hatchery is that 
all the fish raised at the hatchery will go into Fort Peck Lake. This 
is not at all true. Fish from this hatchery will be planted wherever 
the Dept. of FWP has a need for them. The stocking of fish in other 
Montana lakes and rivers will help other communities in Montana realize 
economic benefits also. In decades to follow, we will still be here as 
stewards of recreation and the new Fort Peck Fish Hatchery will realize 
its potential in fish management, economic opportunities, and as a 
promise to citizens all over this great nation that Montana is still 
the Last Best Place to come and recreate.
    In closing, I would like to thank the committee for hearing our 
testimony. We would also like the committee to know that the Citizens 
for a Fort Peck Fish Hatchery has not been paid for anything that we 
have done to date. When we started this project over 18 months ago, we 
knew that it would take time and we have not been deterred. We have 
imposed a $5.00 warm-water stamp on ourselves to help pay the operation 
and maintenance of the Fort Peck Hatchery once operational. We are 
asking for the Federal Government to form a partnership with the State 
of Montana, the private sector, and citizens to make this hatchery 
project a true win/win situation for all parties involved.
                  Anglers' Dollars Boost State Economy
        anglers' dollars worth $448 million to montana's economy
 spending on recreational fishing helps to create 7,505 full-time jobs
    Dec. 11, 1997.--Montana's 335,484 adult anglers spent $243,500,824 
last year on fishing trips and equipment, according to economic 
statistics released today by the American Sportfishing Association. The 
study indicated that the local economic impact of angler expenditures 
in Montana was $447,974,606 in 1996.
    ``Sportfishing is more important to Montana than ever before,'' 
said ASA President Mike Hayden. ``What an angler spends during a 
weekend fishing trip ripples through the economy to create jobs, wages 
and tax revenues for state and Federal Governments. In Montana, these 
numbers are significant.''
    Thc study conducted by Dr. Vishwanic Maharaj, ASA's director of 
economics, indicates that sportfishing in Montana during created:
    <bullet>  the equivalent of 7,505 full-time jobs;
    <bullet>  $123,422,673 in wages;
    <bullet>  $214,788 in State tax revenue; and
    <bullet>  $11,114,641 in Federal tax revenue.
    The study also indicated that anglers spent 2.617,100 days fishing 
Montana's waters for a variety of game fish.
    ``Anglers in Montana are fishing more days and spending more money 
on each trip.'' Maharaj said.
    Hayden said the link between strong fishery resources and Montana 
jobs is clear.
    ``Often industries such as power, timber and agriculture have 
pitted the need to protect their jobs against the need for healthy 
fisheries,'' Hayden said. ``These statistics send a pretty powerful 
message that wise conservation choices that protect fish also protect 
jobs. Clean, fishable water is of vita importance to our economy.''
    The expenditure data used in ASA's economic impact analysis comes 
from the 1996 National Survey of Fishing, Hunting, and Wildlife-
Associated Recreation, which was conducted by the U.S. Fish and 
Wildlife Service. The survey polled sportsmen and women age 16 and 
older on their spending habits and activities outdoors.
    Nationally, the statistics indicate that the total economic impact 
of recreational fishing in the United States reached $108 billion in 
1996. Corrected for inflation, that is a 36 percent increase since the 
last such study was conducted in 1991.
    Sportfishing created more than 1.2 million full-time jobs in the 
United States in 1996, generating $28.3 billion in wages. Sportfishing 
created more than $3 billion in Federal income tax revenue and $2.39 
billion in State income tax revenue.
    ASA is a non-profit industry association working to ensure healthy 
and sustainable resources and increase sportfishing participation 
through education, conservation promotion and marketing. It is the only 
recreational fishing organization that employs a full-time economist to 
conduct original research and analyze research by the Federal 
Government and others on sportfishing.
                                 ______
                                 
                    Office of Senator Conrad Burns, Montana
                                                      March 9, 2000

Mr. Chuck Lawson
Chairman
Citizens for a Fort Peck Hatchery
P.O. Box 607
Glasgow, MT 59230-0607

Dear Chuck: I wanted to alert you to the progress being made as I work 
with other Montanans to make the Fort Peck Fish Hatchery project a 
reality. On February 3, 2000 I introduced S. 2027, the ``Fort Peck Fish 
Hatchery Authorization Act of 2000.''
    As you may know, the Fort Peck project was built in the 1930's to 
dam the Upper Missouri River. The original authorization legislation 
for the Fort Peck project, and subsequent revisions and additions, left 
a great many promises unmet. A valley was flooded, but originally 
Montana was promised increased irrigation, low-cost power, and economic 
development. Since the original legislation, numerous laws have been 
enacted promising increased recreational activities on the lake, and to 
ensure that the Federal Government would provide more support for the 
fish and wildlife resources in the area.
    In this day and age, economic development in rural areas is 
becoming more and more dependent upon recreation and strong fish and 
wildlife numbers. The Fort Peck area is faced with a number of 
realities. First, the area is in dire need of a fish hatchery. The only 
hatchery in the region to support warm water species is found in Miles 
City. It is struggling to meet the needs of the fisheries in the area, 
yet it continues to fall short. Additionally, an outbreak of disease or 
infrastructure failure at the Miles City hatchery would leave the 
entire region reeling, with no secondary source to support the area's 
fisheries.
    We are also faced with the reality that, despite the promises given 
by the Federal Government, the State of Montana has had to foot the 
bill for fish hatchery operations in the area. Since about 1950 the 
State has been funding these operations with little to no support from 
the Army Corps of Engineers. The Citizens for a Fort Peck Fish 
Hatchery, a citizen's group spanning the State of Montana, finally 
decided to make the Federal Government keep its promises.
    Last year the citizen's group organized, and state legislation 
subsequently passed to authorize the sale of a warm water fishing stamp 
to begin collecting funds for the eventual operation and maintenance of 
the hatchery. I helped the group work with the Corps of Engineers to 
ensure that $125,000 in the Corps budget for fiscal year 2000 was 
allocated to a feasibility study for the project, and Montanans kept 
their end of the bargain by finding another $125,000 to match the Corps 
expenditure. Clearly, the local area is putting their money, along with 
their sweat, behind this project.
    A lot of effort has already gone into this project. A state bill 
has been passed. The Corps has dedicated a project manager to the 
project. Citizens have raised money and jumped over many of the hue. 
But the bottom line is that this is a great project with immense 
support. It is a good investment in the area, and it helps the Federal 
Government fulfill one thing that it ought to--its promises.
    I want to acknowledge that this legislation is still a work in 
progress and many of the specifics will change as the Corps completes 
its feasibility study on the project. It may cost slightly more than 
the legislation that I have introduced. It may cost less. No piece of 
legislation comes out of the process in the same form it went in, but I 
felt it was vitally important to introduce legislation to keep the ball 
rolling. I look forward to working with the rest of the Montana 
Delegation, the State of Montana, citizens, and the administration to 
work out the details and get the hatchery built as soon as possible.
            Sincerely
                       Conrad Burns, United States Senator.
                               __________
                                    Office of the Governor,
                                State of Montana, January 18, 2000.

Chuck Lawson
Citizens for a Fort Peck Hatchery
P.O. Box 607
Glasgow MT 59230

Dear Mr. Lawson: This is in reply to your letter last August regarding 
our administration's assistance in securing funding for the Fort Peck 
multi-species hatchery. I understand you have communicated regularly 
with Fish, Wildlife and Parks (FWP) on this matter, but wanted to take 
a few minutes even at this late date to respond directly.
    A great deal of activity has taken place in recent months to push 
forward the Fort Peck Fish Hatchery. In particular, an agreement has 
been reached between the State and the Corp of Engineers for a 
preliminary engineering study which is a crucial first step. FWP will 
commit the proceeds from the sale of the warmwater fish stamp to the 
study. I was particularly pleased to see the community step forward and 
provide interim funding for the match to the Corp of Engineers (COE) 
until the proceeds from the warmwater stamp become available. This type 
of commitment and ingenuity in solving problems is a credit to you and 
others who are promoting this project and essential to seeing it 
completed. I will follow the progress of the study closely and provide 
assistance and support when this issue comes before Congress.
    Thank you again for your interest in this project. We look forward 
to working with your organization and the COE in the coming months.
            Sincerely,
                                    Marc Racicot, Governor.
                               __________
                     Office of Senator Max Baucus, Montana,
                                                      May 12, 1999.

Mr. Chuck Lawson
Chairman
Citizens for a Fort Peck Hatchery
P.O. Box 607
Glasgow, Montana 59230

Dear Chuck: Thank you for your letter in support of the Fort Peck Fish 
Hatchery. As you know, I support this important project and will work 
in partnership with Citizens for a Fort Peck Hatchery to see it 
completed.
    To that end, I have asked Jo-Ellen Darcy of the Senate Environment 
and Public Works Committee, of which I am ranking Democrat, to assist 
you in your dealings with the U.S. Army Corps of Engineers and other 
Federal agencies. Please contact her at (202) 224-8832.
    Thank you for allowing my involvement in this project. Please don't 
hesitate to contact me at any time.
    With best personal regards, I am
            Sincerely,
                                                Max Baucus.
                                 ______
                                 
                     Office of Senator Max Baucus, Montana,
                                                  January 31, 2000.
Mr. Chuck Lawson
Chairman
Citizens for a Fort Peck Hatchery
P.O. Box 607
Glasgow, Montana 53230

Dear Chuck: I appreciate receiving updates on the progress of the Fort 
Peck Fish Hatchery project. When you and Sam Kitzenberg proposed this 
project to my office in the fall of 1998, prior to the 1999 session of 
the Montana Legislature, I was strongly supportive of the hatchery 
proposal. It was then and continues to be my opinion that this project 
will have a huge impact on economic development and natural resources 
in northeastern and central Montana.
    As the Ranking Democratic Senator for the U.S. Senate Committee on 
Environment and Public Works, I look forward to receiving the request 
for authorization of the Fort Peck Fish Hatchery. I assure you and 
those Montanans who have worked so hard on this project that I will 
make it a priority to see it successfully reported to the full Senate,
    I also pledge my support to work closely with the other members of 
the Montana congressional delegation to secure funding from my 
Democratic colleagues through the appropriations process.
    Again, my thanks for your consistent leadership in this project. I 
look forward to working with you, the Citizens for a Fort Peck 
Hatchery, the Montana Chapter of Walleyes Unlimited, as well as the 
Montana counties and communities who have taken such an active role. I 
am particularly pleased to with the partnership role taken by the 
Federal and state agencies who have collaborated so well in this 
endeavor, particularly Roy Snyder and the U.S, Army Corps of Engineers.
            With best personal regards, I am
                                                Max Baucus.
                                 ______
                                 
                         Office of the Lieutenant Governor,
                                   State of Montana, April 4, 2000.

Chuck Lawson
Citizens for a Fort Peck Fish Hatchery
P.O. Box 607
Glasgow MT 59230

Dear Chuck: Thank you so much for sending me an update on the Fort Peck 
Fish Hatchery project.
    The Citizens for a Fort Peck Fish Hatchery have worked very hard 
supporting this project and should take great pride in the progress 
that has been made so far. I have always believed that the best way to 
ensure success is for people to come together working cooperatively for 
common cause. I agree that it is rare to be able to pull together so 
many diverse parties in cooperation as you have done, and I 
congratulate you on your well earned success.
    Thank you again for your update and best wishes for the continued 
success of this wonderful project.
            Sincerely,
                           Judy Martz, Lieutenant Governor.
                               __________
                                  Department of the Army,  
                                        Corps of Engineers,
                               Omaha, NE 68102-4978, 6 January 1999

Mr. Chuck Lawson,
Chairman
Citizens for a Fort Peck Hatchery
P.O. Box 607
Glasgow, MT 59230.

Dear Mr. Lawson: This is in response to your December 21, 1998 letter 
to Mr. Roy Snyder of my stay requesting the availability of Corps of 
Engineer lands below Fort Peck Dam for a multi-species fish hatchery.
    The use of the requested lands for a fish hatchery is compatible 
with the authorized project purpose of fish and wildlife management as 
provided by the 1944 Flood Control Act, as amended. It is also 
consistent with similar facilities we have below our dams in North 
Dakota and South Dakota. Accordingly, provided all environmental laws 
and regulations are met and we have a valid request for the lands from 
a government entity, I can foresee that the lands would be made 
available for construction of a fish hatchery.
    I should emphasize, I am not commenting on whether a fish hatchery 
at this location would be good or bad or is even needed. I am, however, 
saying a fish hatchery is compatible with the Corps mission and we have 
made our lands available for similar facilities in the past.
    I hope this preliminary assessment of the availability of Corps 
lands for a fish hatchery is helpful. If you have any questions or need 
additional information please contact me at (402)221-4135 or Mr. Roy 
Snyder At (406,526-3411.
            Sincerely,
                                    Paul R. Wemhoener, P.E.
                                        Chief, Operations Division.
                               __________
     Statement of Robert McColly, on Behalf of the Valley Electric 
                           Cooperative, Inc.
    Good morning. My name is Robert McColly and I am a former Board 
President and member of Valley Electric Cooperative behalf today. I am 
a life-long resident of Montana the rural electric cooperative movement 
since 1964.
    The legislation that is the subject of this hearing, S. 2027, 
proposes to establish a warm water fish hatchery at Fort Peck Lake. 
This legislation reflects an increasing environmental awareness and 
recognizes the need to take action to maintain viable fish populations 
in the Missouri River and its reservoirs.
    I am concerned, however, about the power supply provisions 
contained in Section 6 (Cost Sharing) (b)(3) which states ``The 
Secretary [of the Army] shall offer to the hatchery project low-cost 
project power for all hatchery operations.''
    First, the marketing of power generation at the Pick-Sloan Missouri 
Basin Program multi-purpose dams is a responsibility of the Western 
Area Power Administration (WAPA), not the Corps of Engineers. WAPA was 
established in 1977 for that specific purpose--to market Federal power 
generated at Federal dams. Under the Flood Control Act of 1944, that 
power is first offered to consumer-owned electric utilities in the 
region.
    The Western Area Power Administration has currently allocated all 
of the output of the Federal dams that are part of the Pick-Sloan 
Missouri Basin Program. That means that any legislation enacted that 
calls for further allocations of Pick-Sloan power will force WAPA to 
withdraw power from existing customers.
    Pick-Sloan power is a crucial part of our power supply. The rural 
electric cooperatives, municipal electric utilities, and public power 
districts in the region entered into a partnership with the Federal 
Government to help pay the costs of a vast regional scheme meant to aid 
in the economic development of the region. Rather than build their own 
power plants, these consumer-owned entities agreed to purchase the 
output from the Federal dams. In areas as sparsely settled as Montana 
and other upper Great Plains state, this power has helped to nurture 
already fragile local economies.
    Our allocations of Pick-Sloan power are already being diminished. 
Our rural electric cooperative--along with all other firm power Federal 
customers--will already be losing 4 percent at the end of this year to 
provide power for newly qualifying consumer-owned electric utilities 
and Native American Tribes under WAPA's Energy Planning and Management 
Plan (EPAMP). In 2006, WAPA may withdraw another 1 percent of our 
Federal allocation to create another Resource Pool for additional 
allocations. The Corps' impending revision of the Master Manual also 
threatens to diminish the Federal resource we depend upon. Changes in 
river operations could threaten not only the availability of Federal 
power, but also its price. The Western Area Power Administration cannot 
market power that is not there.
    The Endangered Species Act stand to affect Missouri River 
operations, and, in fact, it already has. The Corps of Engineers has 
already modified releases in an effort to help recover the Interior 
Least Tern and Piping Plover, losing precious power generation in the 
process. The recovery plan for the pallid sturgeon has yet to be 
decided.
    Power supply for the fish hatchery is an important issue, no doubt 
about that; but it must be analyzed within the context of the economies 
it is meant to serve. In this part of the country, we know full well 
how important affordable power is.
    The hatchery would receive the benefits of Pick-Sloan power by 
purchasing its needs from the local rural electric cooperative. A power 
supply for the hatchery using Pick-Sloan power from the dam will 
disadvantage the local rural electric cooperative by reducing their 
allocation and depriving all consumer-owners in the area of needed load 
to maintain rate stability. The whole is greater than the sum of its 
parts.
    Furthermore, since the operations and maintenance costs of the 
hatchery are a Federal obligation, it makes little sense to sell the 
power at the project rate (2.5 mills). To do so would make the power 
costs not a Federal obligation, but the obligation of power customers 
throughout the region, who will be paying for the true cost (currently 
14.54 mills) through their electric bills.
    As I understand it, the fish hatchery would not be needing power 
until 2006 or so. Why not seek an allocation under the next Resource 
Pool allocation process of the Western Area Power Administration? In 
that way, the hatchery could receive a direct allocation of Pick-Sloan 
power without forcing WAPA to withdraw even more power from its firm 
power customers.
    I urge the sub-committee to vest the determination of Federal power 
supply with the Federal agency that bears that responsibility--the 
Western Area Power Administration; and consider alternatives to the 
power supply language currently in the bill.
    Thank you.
                               __________
             Statement of Carl Seilstad, Walleyes Unlimited
    Unlimited. It is an honor to represent Walleyes Unlimited and all 
warm water fishermen across the state in promoting the multi species 
warm water fish hatchery. Walleyes Unlimited is an organization that 
helps promote, enhance and protect the future of fishing in Montana. We 
have a membership in excess of 4000 members. We have 18 chapters across 
Montana; warm water anglers are all over the state of Montana.
    Individual citizens all well as various organizations have put 
forth a lot of time and effort to promote the hatchery to where it is 
today. People who have said they do not fish have helped us also. This 
defines the amount of support we have received on the hatchery. 
$63,867.95 has been contributed to the hatchery fund as of April 23, 
2000. Walleye Unlimited Chapters, private citizens, and various 
businesses and organizations have contributed to the fund. These funds 
are designated for payment on the loan that was obtained to pay for the 
conceptual design of the hatchery.
    We as Walleyes Unlimited members strongly believe the new hatchery 
will help preserve and protect the future of fishing for generations to 
come. Take for example the Gauger, a native species to many rivers and 
lakes. The Gauger is currently on the concerned species list. Currently 
MFWP has reduced catch limits for sauger on certain rivers. Last year 
1,000,000 Gauger eggs were collected. Out of the million eggs only 
200,000 fry were released and 100,000 fingerlings. There isn't 
sufficient space at Miles City to keep up with the declining sauger 
numbers. The new hatchery would have the space and capabilities to help 
keep this species of fish from being put on the endangered species 
list.
    Walleyes Unlimited Chapters across the state each year conduct kids 
fishing days. We teach young anglers fish information, knot tying, the 
importance of catch and release and various other fishing techniques. 
We feel it is very important to get children involved in fishing. The 
MFWP has also started a program called Get Hooked on Fishing, Not on 
Drugs Schools and teachers across the state are involved in this 
program. The schools that sign up for this program are sent fishing 
tackle and booklets on techniques and ethics of fishing. Field fishing 
days and classroom activities make this program very beneficial.
    We do all of these activities and programs for our future anglers. 
Let's insure these young people we will have quality warm water fishing 
in the state. The new warm water multi species hatchery will help make 
this goal a reality.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                   - 
</pre></body></html>
